<html>
<title> - THE HOMELESS CHILDREN AND YOUTH ACT OF 2011: PROPOSALS TO PROMOTE ECONOMIC INDEPENDENCE FOR HOMELESS CHILDREN AND YOUTH</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    THE HOMELESS CHILDREN AND YOUTH
                   ACT OF 2011: PROPOSALS TO PROMOTE
                   ECONOMIC INDEPENDENCE FOR HOMELESS
                           CHILDREN AND YOUTH

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INSURANCE, HOUSING AND
                         COMMUNITY OPPORTUNITY


                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           DECEMBER 15, 2011

                               ----------                              

       Printed for the use of the Committee on Financial Services

                           Serial No. 112-93

   THE HOMELESS CHILDREN AND YOUTH ACT OF 2011: PROPOSALS TO PROMOTE 
         ECONOMIC INDEPENDENCE FOR HOMELESS CHILDREN AND YOUTH


For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4324332c03203630372b262f336d202c2e6d">[email&#160;protected]</a>  



                    THE HOMELESS CHILDREN AND YOUTH
                   ACT OF 2011: PROPOSALS TO PROMOTE
                   ECONOMIC INDEPENDENCE FOR HOMELESS
                           CHILDREN AND YOUTH

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INSURANCE, HOUSING AND
                         COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2011

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 112-93

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                   SPENCER BACHUS, Alabama, Chairman

JEB HENSARLING, Texas, Vice          BARNEY FRANK, Massachusetts, 
    Chairman                             Ranking Member
PETER T. KING, New York              MAXINE WATERS, California
EDWARD R. ROYCE, California          CAROLYN B. MALONEY, New York
FRANK D. LUCAS, Oklahoma             LUIS V. GUTIERREZ, Illinois
RON PAUL, Texas                      NYDIA M. VELAZQUEZ, New York
DONALD A. MANZULLO, Illinois         MELVIN L. WATT, North Carolina
WALTER B. JONES, North Carolina      GARY L. ACKERMAN, New York
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
GARY G. MILLER, California           GREGORY W. MEEKS, New York
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
SCOTT GARRETT, New Jersey            RUBEN HINOJOSA, Texas
RANDY NEUGEBAUER, Texas              WM. LACY CLAY, Missouri
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
JOHN CAMPBELL, California            JOE BACA, California
MICHELE BACHMANN, Minnesota          STEPHEN F. LYNCH, Massachusetts
THADDEUS G. McCOTTER, Michigan       BRAD MILLER, North Carolina
KEVIN McCARTHY, California           DAVID SCOTT, Georgia
STEVAN PEARCE, New Mexico            AL GREEN, Texas
BILL POSEY, Florida                  EMANUEL CLEAVER, Missouri
MICHAEL G. FITZPATRICK,              GWEN MOORE, Wisconsin
    Pennsylvania                     KEITH ELLISON, Minnesota
LYNN A. WESTMORELAND, Georgia        ED PERLMUTTER, Colorado
BLAINE LUETKEMEYER, Missouri         JOE DONNELLY, Indiana
BILL HUIZENGA, Michigan              ANDRE CARSON, Indiana
SEAN P. DUFFY, Wisconsin             JAMES A. HIMES, Connecticut
NAN A. S. HAYWORTH, New York         GARY C. PETERS, Michigan
JAMES B. RENACCI, Ohio               JOHN C. CARNEY, Jr., Delaware
ROBERT HURT, Virginia
ROBERT J. DOLD, Illinois
DAVID SCHWEIKERT, Arizona
MICHAEL G. GRIMM, New York
FRANCISCO ``QUICO'' CANSECO, Texas
STEVE STIVERS, Ohio
STEPHEN LEE FINCHER, Tennessee

                   Larry C. Lavender, Chief of Staff
      Subcommittee on Insurance, Housing and Community Opportunity

                    JUDY BIGGERT, Illinois, Chairman

ROBERT HURT, Virginia, Vice          LUIS V. GUTIERREZ, Illinois, 
    Chairman                             Ranking Member
GARY G. MILLER, California           MAXINE WATERS, California
SHELLEY MOORE CAPITO, West Virginia  NYDIA M. VELAZQUEZ, New York
SCOTT GARRETT, New Jersey            EMANUEL CLEAVER, Missouri
PATRICK T. McHENRY, North Carolina   WM. LACY CLAY, Missouri
LYNN A. WESTMORELAND, Georgia        MELVIN L. WATT, North Carolina
SEAN P. DUFFY, Wisconsin             BRAD SHERMAN, California
ROBERT J. DOLD, Illinois             MICHAEL E. CAPUANO, Massachusetts
STEVE STIVERS, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    December 15, 2011............................................     1
Appendix:
    December 15, 2011............................................    49

                               WITNESSES
                      Thursday, December 15, 2011

Cackley, Alicia Puente, Director, Financial Markets and Community 
  Investment, U.S. Government Accountability Office..............    27
Diamond, Seth, Commissioner, New York City Department of Homeless 
  Services.......................................................    29
Dunlap Brandon, Chicago, Illinois................................     7
Garza, Maria Estella, Homeless Liaison, San Antonio Independent 
  School District................................................    31
Johnston, Mark, Deputy Assistant Secretary, Office of Special 
  Needs, U.S. Department of Housing and Urban Development........    33
Khan, Rumi, 6th grader, Lamberton Middle School, Carlisle, 
  Pennsylvania...................................................     8
Koon, Brittany Amber, PFC, Ft. Hood, Texas.......................    10
Pastor, Brooklyn, 7th grader, William Paca Middle School, 
  Shirley, New York..............................................    11
Poppe, Barbara, Executive Director, United States Interagency 
  Council on Homelessness........................................    34
Raynor, Destiny, 9th grader, Winter Springs High School, Sanford, 
  Florida........................................................    12
Rodgers, Starnica, Truman College, Chicago, Illinois.............    14
Whitney, Grace-Ann Caruso, Ph.D., MPA, IMH-E (IV), Director, 
  Connecticut Head Start State Collaboration Office, Connecticut 
  State Department of Education..................................    36

                                APPENDIX

Prepared statements:
    Cackley, Alicia Puente.......................................    50
    Diamond, Seth................................................    63
    Dunlap Brandon...............................................    66
    Garza, Maria Estella.........................................    70
    Johnston, Mark...............................................    79
    Khan, Rumi...................................................    85
    Koon, Brittany Amber.........................................    88
    Pastor, Brooklyn.............................................    92
    Poppe, Barbara...............................................    94
    Raynor, Destiny..............................................   105
    Rodgers, Starnica............................................   110
    Whitney, Grace-Ann Caruso....................................   112

              Additional Material Submitted for the Record

Biggert, Hon. Judy:
    December 12, 2011, letter from the the Alliance for Excellent 
      Education..................................................   118
    December 9, 2011, letter from the American School Counselor 
      Association................................................   119
    December 8, 2011, letter from the Chicago Coalition for the 
      Homeless...................................................   120
    December 13, 2011, letter from Family Promise................   122
    December 13, 2011, letter from Family Promise of Albuquerque.   123
    December 13, 2011, letter from Family Promise of Berks 
      County, Inc................................................   124
    December 13, 2011, letter from Family Promise of Bryan-
      College Station............................................   125
    December 13, 2011, letter from Family Promise of Forsyth 
      County.....................................................   126
    December 13, 2011, letter from Fort Bend Family Promise......   127
    December 13, 2011, letter from Family Promise of Gallatin 
      Valley.....................................................   128
    December 13, 2011, letter from Family Promise of Greater 
      Helena.....................................................   129
    December 13, 2011, letter from Family Promise of Las Vegas...   130
    December 13, 2011, letter from Family Promise of Midland.....   131
    December 13, 2011, letter from Family Promise of Monmouth 
      County.....................................................   132
    December 13, 2011, letter from Family Promise of Morris 
      County.....................................................   133
    December 13, 2011, letter from Family Promise of North Idaho.   134
    December 9, 2011, letter from the First Focus Campaign for 
      Children...................................................   135
    December 12, 2011, letter from HEAR US Inc...................   136
    December 13, 2011, letter from Horizons for Homeless Children   137
    December 9, 2011, letter from the Homeless Prenatal Program..   138
    December 13, 2011, letter from Huckleberry House.............   139
    December 13, 2011, letter from The Interfaith Hospitality 
      Network of Augusta, Inc....................................   140
    December 13, 2011, letter from The Interfaith Hospitality 
      Network of Burlington County...............................   141
    December 13, 2011, letter from The Interfaith Hospitality 
      Network of Essex County, Inc...............................   143
    December 13, 2011, letter from The Interfaith Hospitality 
      Network of Greater Johnson City............................   144
    December 5, 2011, letter from The Interfaith Hospitality 
      Network of Northwest Philadelphia..........................   145
    December 12, 2011, letter from the National Association for 
      the Education of Homeless Children and Youth...............   148
    December 15, 2011, letter from the National Association of 
      Home Builders..............................................   150
    December 9, 2011, letter from the National Association of 
      REALTORS..................................................   151
    December 14, 2011, letter from the National Association of 
      Secondary School Principals................................   152
    December 6, 2011, letter from the National PTA...............   154
    December 8, 2011, letter from the National Center on Family 
      Homelessness...............................................   155
    December 2011 report of the National Center on Family 
      Homelessness entitled, ``America's Youngest Outcasts 2010''   156
    December 9, 2011, letter from the National Coalition for the 
      Homeless...................................................   280
    December 9, 2011, letter from the National Center for Housing 
      & Child Welfare............................................   282
    December 9, 2011, letter from the National Health Care for 
      the Homeless Council.......................................   284
    December 8, 2011, letter from the National Human Services 
      Assembly...................................................   285
    December 12, 2011, letter from the National Law Center on 
      Homelessness & Poverty.....................................   286
    December 14, 2011, letter from the National Low Income 
      Housing Coalition..........................................   288
    December 9, 2011, letter from The National Network for Youth.   290
    December 13, 2011, letter from the National Network to End 
      Domestic Violence..........................................   292
    December 8, 2011, letter from the School Social Work 
      Association of America.....................................   293
    December 13, 2011, letter from The Road Home.................   294
    June 2011 National Center for Homeless Education report 
      entitled, ``Education for Homeless Children and Youth 
      Program, Data Collection Summary''.........................   295
    December 7, 2011, letter from Women Against Abuse............   331
    December 12, 2011, letter from the Western Regional Advocacy 
      Project....................................................   332


                    THE HOMELESS CHILDREN AND YOUTH
                   ACT OF 2011: PROPOSALS TO PROMOTE
                   ECONOMIC INDEPENDENCE FOR HOMELESS
                           CHILDREN AND YOUTH

                              ----------                              


                      Thursday, December 15, 2011

             U.S. House of Representatives,
                 Subcommittee on Insurance, Housing
                         and Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2237, Rayburn House Office Building, Hon. Judy Biggert 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Biggert, Capito, Stivers; 
Waters, Cleaver, and Capuano.
    Also present: Representatives George Miller of California, 
Green, and Davis.
    Chairwoman Biggert. The Subcommittee on Insurance, Housing 
and Community Opportunity will come to order. We are having a 
hearing today entitled, ``The Homeless Children and Youth Act 
of 2011: Proposals to Promote Economic Independence for 
Homeless Children and Youth.''
    I would like to welcome you all here today. And first of 
all, I would like to thank the Judiciary Committee for allowing 
us to hold our hearing in this room. We usually are in our 
Financial Services Committee room, but they are doing some work 
to fix the walls because of the earthquake that occurred about 
a month ago. I never thought that Washington would have to 
repair walls from earthquakes, but that is the way it is.
    I will now turn to opening statements, and without 
objection, all Members' opening statements will be made a part 
of the record. And I will yield myself such time as I require.
    Good morning, everyone, and I would like to welcome our 
special guests on panel one, and especially the current or 
former homeless children and youth, also in the audience. 
Welcome, to you, and thank you so much for being here. And we 
hope that your first experience--I assume this is your first 
experience--with the U.S. Congress as a witness or in the 
audience here is a good one, one that will help many children 
in this country.
    And I would also like to recognize a now formerly homeless 
family that was featured on ``60 Minutes'' recently, the 
Metzgers--Arielle, Austin, and their dad, Tom. So welcome--
maybe raise your hands so we can see where you are. Thank you. 
Thanks for being here.
    Children should not be without a home and they should not 
have to fight to prove that they are homeless, and on this, I 
hope we all agree. Today's hearing will examine H.R. 32, the 
Homeless Children and Youth Act of 2011, which will expand the 
McKinney-Vento definition of ``homeless person'' so that 
homeless children and youth verified as homeless by other 
Federal programs can access HUD housing and services.
    We have a unique opportunity to hear from witnesses about 
the bureaucratic barriers that are preventing homeless children 
and youth from securing HUD homeless assistance. Our ultimate 
goal is to ensure that homeless children and youth are eligible 
for HUD homeless housing and supportive services.
    Secure and more stable housing as well as supportive 
services will help kids stay in school and avoid becoming 
tomorrow's homeless adults. These goals must be a top priority 
for Federal agencies that have homeless programs.
    If Federal programs are not working for the people they are 
intended to serve, it is our job to find the flaws and reform 
those programs. During the past decade, two significant reforms 
to the McKinney-Vento Act have been intended to help children 
and youth to more easily secure homeless assistance, but our 
work is not complete. This week, the National Center on Family 
Homelessness released a report revealing that 1 out of every 45 
children in the United States is homeless.
    The Department of Education reported that student 
homelessness is on the rise. There are nearly 1 million 
homeless children in the United States, and these statistics 
are absolutely unacceptable.
    Our subcommittee will work to identify the Federal red tape 
that is standing in the way of local providers who are helping 
homeless children and youth to increase what they can do. We 
will pursue reform measures that break down those barriers. One 
such reform measure, H.R. 32, our subcommittee will likely 
consider when we come back in 2012.
    With that, I recognize the gentleman from Missouri, Mr. 
Cleaver, for an opening statement.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    I would like to first of all extend a very warm welcome to 
the two young men and four young women who are testifying 
before this committee. You are having an experience that hardly 
any other individuals your age will ever have, and that means 
that you are now famous. You can start your own reality TV 
show. Thank you for being here to share your own personal 
experiences.
    You can't turn on the television or go out anyplace during 
this time of year without seeing at least the attempt to create 
a festive environment. This is a holiday season that generally 
captures the attention of just about everybody in this country.
    It is difficult, however, for me, having read your 
testimonies, to feel the kind of festive atmosphere that I 
would normally enter into during this time of the year. While I 
have four children, and while I look like I am in my thirties, 
I actually have three grandchildren, and it is a bit painful to 
read your testimonies. There is nothing that can touch my soul 
as much as finding pain with young people.
    In my real life, I am a United Methodist pastor, and from 
time to time I do become involved in issues adversely affecting 
young people. And this testimony that I was able to read 
actually touched my soul and caused me to do a great deal of 
thinking last night as I was trying to sleep. And in my 
struggles last night trying to sleep after having read this, I 
thought to myself, ``Now, what about all these other kids 
around the country who have no place to sleep?'' I am in my bed 
across the street--I live in the Methodist building--and I am 
not able to sleep because I am thinking, ``Boy, this is 
terrible.'' And then, I thought about people without a place to 
sleep, and that really created more pain.
    Sometimes, our discussions on the issues of homelessness 
can become extremely technical and we become more involved in 
program descriptions and specifics, but we cannot lose sight--
we must not lose sight of the fact that this discussion today 
is about real people--real stories. And your testimony will 
help us to remember that.
    One thing we all know is that despite the efforts we have 
made over the past several years, and the improvements that we 
have made with the HEARTH Act, there is still much that our 
Federal agencies could do to improve coordination across 
programs and increase access to the services that are being 
provided. I think that today we will hear some valuable 
perspectives on how we in Congress can help.
    I understand that our subcommittee Chair, Mrs. Biggert's, 
bill is intended to reduce the barriers to services for 
children and youth who are in highly unstable housing 
situations but don't currently meet the HUD definition of 
homeless. So I want to thank Mrs. Biggert for her work.
    And, there are very few conversations that we can have here 
in Washington that will not include a discussion of dollars. 
For good or bad, that is the way it goes. And this discussion 
is no different, so we have to acknowledge that fact as we move 
forward.
    I want to thank you, Madam Chairwoman, for what you have 
done, and I look forward to hearing the testimony today.
    Chairwoman Biggert. Thank you, Mr. Cleaver.
    The gentleman from Ohio, Mr. Stivers, is recognized for 3 
minutes.
    Mr. Stivers. Thank you, Madam Chairwoman. And I would like 
to thank you for holding this hearing today to ensure that 
homeless children and youth have access to homeless assistance 
and services. I appreciate that.
    I am pleased to welcome Private First Class Brittany Amber 
Koon, who spent much of her childhood in Upper Arlington, Ohio, 
in my district, and she recently joined the United States 
military--the Army--and completed her initial service and is 
stationed at Fort Hood, Texas. I am looking forward to hearing 
her testimony today, and I want to thank her and all the 
witnesses for sharing their stories.
    One of the things that Private First Class Koon's testimony 
reminded me, she has a quote in there that she liked the idea 
of taking her leadership skills to the next level to serve her 
country and she decided to go on active duty because she would 
have training and a stable place to live. We have a lot of 
young folks in this country who have a lot to offer, and many 
of them are fighting homelessness. And I can tell you, I am 
pleased to join that fight with Private First Class Koon and to 
try to fight homelessness.
    I am looking forward to hearing the testimony of all of the 
witnesses today. I appreciate your time, and I look forward to 
hearing your testimony.
    And I appreciate the chairman for holding this hearing, and 
I look forward to continuing the fight to make things better 
for young folks who are suffering from homelessness.
    Thank you so much.
    And welcome, Private First Class Koon.
    Chairwoman Biggert. Thank you.
    Mr. Cleaver?
    Mr. Cleaver. Mr. George Miller is here with us. He is not a 
member of this subcommittee, but I would ask unanimous consent 
to allow him to speak on this issue that he feels very strongly 
about.
    Chairwoman Biggert. Without objection, it is so ordered.
    The gentleman from Massachusetts is recognized for 1 
minute.
    Mr. Capuano. Thank you, Madam Chairwoman.
    Madam Chairwoman, thank you for having this hearing, and I 
congratulate the young people who are here today. I don't think 
this is a usual situation. Congress is not a usual place. So 
don't think this has anything to do with most of your real 
life.
    But I want to be really clear: This proposal today is a 
good proposal. It is something that is long overdue and I 
congratulate the chairwoman for submitting it.
    But I also want to be very clear: This is not going to be 
the final answer to ending homelessness with children or with 
others. The only way this country is going to do that is to put 
money on the table to build more affordable housing. Simple.
    Otherwise, there will be no place to go. Simply getting a 
family into a shelter is better than not, but we can't just 
leave them in a shelter. That is not real advancement; that is 
not real opportunity.
    It is better than not, but we need to build affordable 
housing in this country right up the ladder for the people at 
the bottom, the people on the next rung up, and the next rung 
up. And we need to make sure that those people can afford to 
buy a home. In today's world, we will be able to afford 
tomorrow by keeping mortgage rates at a reasonable level.
    Otherwise, most of the world will be forced into subsidized 
housing if they can't get into their own home or homeownership. 
And if that happens, we will never be able to build our way out 
of it.
    So I want to be really clear: This is a good proposal that 
is long overdue that I strongly support and I look forward to 
passing.
    But as far as I am concerned, we really have to get serious 
about addressing homelessness in this country, which, to me, is 
a national embarrassment. It is a national embarrassment that 
we have children on the streets. It is a national embarrassment 
that we have veterans on the street. It is a national 
embarrassment that we don't take care of some of our people 
with mental challenges who are also on the street.
    I think it doesn't speak well for us as a society. So for 
me, this is a great thing, but I want to be very clear that 
this will not end homelessness. The only way for us to do that 
as a society is to be honest about it and to try to put money 
on the table to build more affordable housing so that people 
will be able to move up the ladder on their own.
    Madam Chairwoman, I yield back the remainder of my time.
    Chairwoman Biggert. Thank you.
    Mr. Green, from Texas, you are recognized for 2 minutes.
    Mr. Green. Thank you, Madam Chairwoman.
    Please permit me, Madam Chairwoman, to thank you for 
hosting this hearing. It is, without question, one of the most 
important hearings that we will have, and one of the most 
important hearings that I think that I have been a party to. So 
I am grateful that you have had the vision and the foresight to 
cause us to visit these issues.
    I would like to concur with my colleagues who have stressed 
the importance of the issue. I also want to stress the 
importance of the fact that we can solve the problem. It is not 
something that is beyond our ability to resolve.
    So the question really isn't whether there is a way to 
resolve this issue of homelessness with our young people. The 
question is really whether we have the will.
    Do we have the will to do it? If we only have the will, 
this country, which prides itself on its future, will take 
charge and make sure that the future continues to be bright for 
all of our children.
    I thank you, and I yield back the balance of my time.
    Chairwoman Biggert. Thank you, Mr. Green.
    We are joined by Ranking Member Miller, the ranking member 
of the Education and the Workforce Committee.
    Thank you for joining us, and you are recognized for 4 
minutes.
    Mr. George Miller of California. Thank you, Chairwoman 
Biggert, for holding this hearing on such a critical issue 
facing our Nation today. I want to thank you for your 
leadership on this issue and the Committee on Education and the 
Workforce. You have been a consistent champion of homeless 
children and families, and it has been a pleasure to partner 
with you on such important issues.
    I also want to thank all the young people who are here to 
tell their stories today to the committee and to the Congress. 
I can't tell you how important it is that Congress hears 
directly on the realities that you and your families face 
because of the lack of adequate housing. I have served on the 
Education Committee for my entire time in public office, and I 
know what a dramatic impact housing and mobility have on a 
student's education.
    Public schools have a unique perspective on social and 
economic issues like homelessness. Unlike other community 
service organizations, schools see the full range of children 
without housing, not just children and youth who make it into a 
shelter. They see kids moving from place to place, from couch, 
to basement, to car, to motel, and to another couch. None of 
these places should be considered a home.
    We know that homelessness puts kids at a much higher risk 
of educational failure. Students without stable homes have more 
attendance problems and they don't do as well in school. 
Student homelessness is also often overlooked as a contributor 
to the Nation's dropout crises.
    Without an education, these students will have a more 
difficult time obtaining jobs that pay decent wages, and they 
are more likely to experience homelessness as an adult. Federal 
education law, through the McKinney-Vento Act, requires schools 
to support homeless students in a number of ways, including 
keeping homeless students in the same school when it is in 
their best interest and providing transportation or immediately 
enrolling them in new schools.
    However, education is only part of the answer. In order for 
homeless students to succeed in school, they must receive 
housing and other supportive services that will stabilize their 
situations and enable them to concentrate on their education.
    Unfortunately, school districts face barriers when they try 
to refer kids to the Department of Housing and Urban 
Development's homeless programs because of the difference in 
the definitions of ``homeless.'' This prevents kids from 
getting services they need and limits community collaboration. 
And perhaps equally disturbing, this mismatch in definition 
also keeps the true scale of children and youth homelessness 
hidden from view.
    H.R. 32 is similar to legislation enacted by the Education 
and the Workforce Committee, the Child Nutrition and Higher 
Education Act. Both of these laws help homeless kids get 
services through the programs by taking advantage of point 
people in the public schools. Similarly, H.R. 32 gets rid of 
the interagency barriers by allowing school districts and 
liaisons and others in Federal and child youth programs to 
verify children and youth in HUD homelessness services.
    It is absolutely critical that this coordination, 
collaboration, and availability be made acceptable within the 
laws of this country so that these children will not have these 
artificial barriers put up to stability in their residencies, 
and in stability in their education attainment, and stability 
in their family life so that they can continue to seek and to 
successfully complete their educational opportunities in this 
country.
    And I want to thank you again, Madam Chairwoman, for 
holding this hearing.
    And again, thank you to the students we are going to hear 
from.
    Chairwoman Biggert. Thank you very much.
    And now, we will introduce all of the panel members, and 
then we will come back and you will each have 5 minutes for 
your statement.
    We have: Brandon Dunlap, from Chicago, Illinois; Rumi Khan, 
who is in sixth grade at Lamberton Middle School, Carlisle, 
Pennsylvania--thank you for being here; Brittany Amber Koon, 
PFC, Fort Hood, Texas--thank you for being here; Brook Pastor, 
who is in seventh grade at William Paca Middle School, Shirley, 
New York--thank you for being here, also; Destiny Raynor, who 
is in ninth grade at Winter Springs High School in Sanford, 
Florida--it is a little cold here, isn't it, compared to that; 
and Ms. Starnica Rodgers, from Truman College in Chicago, 
Illinois. Thank you all for being here.
    With that, without objection, your written statements will 
be made a part of the record, and then you will each be 
recognized for a 5-minute summary of your testimony.
    So we will start with you, Brandon Dunlap.

         STATEMENT OF BRANDON DUNLAP, CHICAGO, ILLINOIS

    Mr. Dunlap. Good morning. Thank you for having me here 
today to testify in support of H.R. 32.
    I am from Chicago, Illinois. I graduated from Kendall 
College and currently work in the food and beverage department 
of the Union League Club. I am proud of what I have 
accomplished so far but it has been very difficult. A safe and 
secure place to live would have been very helpful to me in many 
ways.
    For most of my childhood, I did not have a stable place to 
live. My parents separated when I was young. After they split, 
my mom, sister, and I ended up living with different relatives 
and friends.
    Since then, my mom got and lost a number of apartments, and 
when we were not together, I had to move from place to place. 
The summer before my junior year, I received a phone call just 
before work from my sister stating that the sheriff was there 
to put our things on the street. My mother was nowhere to be 
found.
    I went to work with tears in my eyes, not knowing where I 
was going to go for the night. The tears wouldn't stop, so my 
manager offered to let me go home. The tears came even stronger 
than possible because I had no home to go to.
    That night, I stayed with my cousin. However, he didn't 
allow me to have a key to come and go as I pleased, and there 
wasn't enough room for me or even a bed. I slept on the floor 
under the pool table.
    Some nights, I would travel a long distance on public 
transportation from school to work, often in bad weather, only 
to find that my cousin was not home and I needed to find 
somewhere else to stay for the night. I would scramble to call 
different friends and family members and then get back to the 
bus to travel a long distance to another place to stay.
    I developed a rotation theory in which I would try to avoid 
staying in the same place two nights in a row. I had to have a 
plan, and then a backup plan, and then more plans just in case 
the backup plan didn't work.
    The time and energy it took for me to figure out where to 
sleep each night and travel to get there, plus my job at 
Subway, left little time for homework. I have faced many 
barriers to housing in my life. My mom had issues she needed 
help with, but if she had had stable housing and services, she 
may have been able to address those issues, and my homelessness 
could have been prevented.
    After I was on my own in high school, I could not afford my 
own housing, and even if I could have, no one would rent to a 
teenager. Although people at my school were helping me with 
other things, nobody was able to help me with my living 
situation. I would have loved some place to live that was safe, 
warm, and consistent, and a healthy place to do homework, go to 
school, work, eat, and live my life.
    It would have been very difficult to verify my living 
situation growing up. To ask for proof that an adult allowed 
me, a homeless child, to live with them for only 14 days would 
possibly cause some adults to feel guilty or worry that they 
could get in trouble.
    I didn't want anyone who was helping me to get tired of my 
presence. Asking them for verification would be another burden 
for them.
    For the same reasons, I would not feel comfortable asking 
them to state that I moved twice within 60 days. Most people 
knew only what I told them about my living situation and didn't 
keep track of the number of days or moves.
    Also, family members would have been reluctant to verify 
something that might show my parents were not caring for me. I 
also didn't want to risk doing anything that might involve any 
authorities because I didn't want them going after my parents.
    If, in order to access housing services, I had to show that 
I would likely be homeless for a long time, that would be 
difficult for me, as I always hoped that I wouldn't be homeless 
for too long.
    I would also like to repeat something I said in the 
beginning of my statement: I am proud of what I have 
accomplished. When I was homeless, it was like steering a ship 
in a storm on the open ocean. Above all else, this situation 
has forced me to look to myself for success.
    However, I hope that other young people do not have to go 
through what I went through. I hope that the situation of young 
people who are staying temporarily with friends and families is 
considered homeless by all government agencies, and they are 
given assistance with a stable place to live.
    Thank you for giving me the opportunity to share my 
experience with you today.
    [The prepared statement of Mr. Dunlap can be found on page 
66 of the appendix.]
    Chairwoman Biggert. Thank you so much.
    Rumi Khan, you are recognized for 5 minutes.

 STATEMENT OF RUMI KHAN, 6TH GRADER, LAMBERTON MIDDLE SCHOOL, 
                     CARLISLE, PENNSYLVANIA

    Mr. Khan. Good morning, Mrs. Biggert, and members of the 
subcommittee. Thank you for holding this hearing so you can 
learn about homelessness from how we see it as kids.
    My name is Rumi Khan, and I am 11 years old. I am in 6th 
grade at Lamberton Middle School in Carlisle, PA.
    Me and my mom are homeless. We got that way because my dad 
was abusing me and my mom. He hit me, and called me stupid and 
retarded. He tried to choke my mom.
    We left our home in June last year and went to stay in a 
hotel for a couple of nights. She tried to find a shelter for 
us to stay in but they didn't have any room.
    One of her friends from work offered to let us stay there. 
Her friend changed and would get really mean with me. Sometimes 
she was nice, but you never knew when she would smack her son 
or pull his hair.
    Once the lady pushed me up the stairs and she was really 
mad at me. When my mom said something to her about pushing me 
up the stairs, she told my mom to leave.
    Another friend that my mom grew up with heard about our 
situation and invited us to stay with him. It turned out that 
he had mental problems and was a big liar.
    My mom tried to get us into shelters for families who have 
been abused but we couldn't because of me. They don't allow 
older boys like me to stay there.
    We were in one shelter for a little while, but had a time 
limit, so they moved us into a hotel. It was really scary 
because drug dealers stood around outside. Sometimes men would 
knock on our door, and when my mom would open it they would 
just look at us and my mom would try to not say anything to 
make them mad and tell them they had the wrong door.
    I didn't want anyone to know where I was staying. When the 
school bus dropped us off, I waited until no one would see me, 
and I then went to the hotel.
    Another friend said he had a spare room we could stay in, 
but then his wife got mad, and we got kicked out. So we went 
and stayed at a motel for one night. It was better not being 
around all the fighting, but we couldn't afford to stay there 
longer than one night.
    We had to change States to find a place to stay. My mom's 
friend invited us to stay with her until we could find a place. 
It was really hard having to start all over again.
    We had to leave there, too, and stay in another hotel for 
one night, and then we got into Safe Harbor.
    Staying with other people was tough. It was really hard 
adjusting to families' different lifestyles. If we crossed the 
line for some reason--boom--we were out.
    The hardest part of having to move so much and stay in so 
many different places was we lost everything. It affected my 
attitude because I lost all my friends over and over again. I 
was afraid to get close to people because I knew we had to move 
again.
    I struggled in school and came to school very exhausted 
because of having to sleep in different places, constantly 
moving and not being able to rest. I know my mom was thinking 
that we should maybe go back to my dad. I missed him a lot, but 
I knew he hadn't gotten any help, and I was too afraid that he 
would hurt us again.
    Now we are at least in one place, and I don't think we will 
get kicked out, at least not for just nothing. Moving around 
and staying with so many different people was really hard.
    I hope that now that we are at Safe Harbor, we will be able 
to stay for a while and find a place to live. Thanks for 
listening to what homelessness is like for me and my mom.
    [The prepared statement of Mr. Khan can be found on page 85 
of the appendix.]
    Chairwoman Biggert. Thank you so much.
    Brittany Koon, you are recognized for 5 minutes.

     STATEMENT OF BRITTANY AMBER KOON, PFC, FT. HOOD, TEXAS

    Ms. Koon. Good morning. Thank you, all the members of the 
subcommittee, for this opportunity to share my story today.
    My name is Brittany Amber Koon. I was born in a little 
house in Upper Arlington, Ohio, that had been in the family for 
years until it was foreclosed on in the middle of my 7th grade 
year.
    My mom, my sister, my brothers, and I doubled up with a 
neighbor. That was the beginning of a long, scary journey of 
instability and lonely transition that would lead me to foster 
care and homelessness, but finally success as a proud member of 
the United States Army.
    After aging out of foster care during my senior year of 
high school, I became homeless again. I had a scholarship to 
college but I lived in my car and on the couches of some 
relatives and friends for 2 months before college. Housing 
solutions just didn't really exist.
    I made it through my first year of college, but as the year 
ended, I was again without housing. I crashed out on the couch 
of a girl I met at a party. After a couple of weeks, I was 
buying all the groceries, and because she did not have a car 
and I did, I was expected to drive her and her kids wherever 
they needed to go. I was not able to find other housing, so I 
felt stuck.
    This happens a lot when you are doubled up. You feel 
indebted to the people who are letting you stay, but then you 
are taken advantage of by them. They took my money and then 
told me I had to leave.
    I started hanging out at bars and nightclubs so I would 
have somewhere to go at night. I know it sounds dangerous, but 
I was making friends at the bars because they would let me come 
back and crash on their couches.
    At the time, I thought staying with these people was better 
than my car, but it really wasn't. In my car, I was in control 
and didn't have to worry about what would happen to me, or 
people who would try and touch me when I was asleep. I wondered 
why there was no help.
    As it got colder, I asked Angela, from the Youth 
Empowerment Program, to take me to a shelter, but there was a 
waiting list. I decided to move in with my boyfriend. Then, my 
relationship went bad and he kicked me out. I was so stressed 
that I had to quit school for the second time.
    That is when I talked to Angela's husband about going into 
the military. I decided to go active duty so I would have 
training and a stable place to live.
    I am now stationed at Fort Hood, Texas. Even though I feel 
more stable and supported than I have in years, I still don't 
have a place to call home. I am coming back from Fort Hood for 
the holidays, but I still have to couchsurf while I am home.
    I feel that making youth document their homelessness 
through the people they couchsurf with will only create 
problems and stress on us and more frustration with the system. 
None of the people I lived with would have been willing to 
document that I was living there. They would have been 
suspicious and afraid of getting in trouble. Also, I didn't 
know many of them well enough to ask them.
    I believe that allowing homeless education liaisons and 
others to help youth document their situation would be best 
because it would be easier for a youth to trust adults we know. 
Most youth who are doubled up are getting used. This is true of 
too many youth. In fact, Danielle Jinx and Shannon McDaniels 
are here to support me today, because they also have been in my 
situation.
    It is very important for HUD to count doubled-up youth, 
because I don't think people realize how hard it is for them. 
If we were not counted, we could never be served effectively.
    Recognizing that there are limited resources, I would 
suggest increasing resources to those programs so that every 
youth could be housed. But ignoring us has only reinforced our 
knowledge that our community has abandoned us and that nobody 
cares about us.
    Like me, you have chosen to serve your country--you here in 
Washington, and me in the field. Just as you have faith in me 
that I will be out there protecting you, it is my hope that you 
will use your power here to protect youth like me.
    Thank you again for this opportunity.
    [The prepared statement of PFC Koon can be found on page 88 
of the appendix.]
    Chairwoman Biggert. Thank you so much.
    Next, Brooklyn Pastor is recognized for 5 minutes.

 STATEMENT OF BROOKLYN PASTOR, 7TH GRADER, WILLIAM PACA MIDDLE 
                   SCHOOL, SHIRLEY, NEW YORK

    Ms. Pastor. Hello. My name is Brooklyn Pastor. I am 12 
years old and I am in 7th grade at William Paca Middle School 
in Shirley, New York. I am here today with my mom, and also Ms. 
Benjamin, from Parent-Child Home Program.
    I have lived in over 16 places in my life--6 shelters, 4 
times doubled up with many different people, and we had our own 
house 6 times. We had to go to emergency motel rooms many other 
times in between shelters and houses.
    I really hate moving from place to place. It is so hard 
because you get to know people and then you have to move. It 
made my life hard.
    When we lived with other people, they were not nice to us. 
We couldn't ask them for anything. They were mostly mad that we 
were there and did not want anyone else to know, especially 
their landlord.
    They would never let us stay where we were. My mom couldn't 
tell anyone where we lived or for how long. It was like being 
invisible.
    The hardest thing about living with other people is 
watching my mom cry because the people would yell at my mom 
because we did not have any money and they would yell at us to 
get out. It hurt me to see my mom hurting and I couldn't do 
much to help her.
    I am always trying to help my younger sister and brother to 
decrease my mom's load when I come home from school. Mom has 
enough to do so I try to play with them and keep them happy. So 
I do that at home and maybe not so much homework.
    I do not have time to socialize because I am looking to see 
if I can help Mom. I follow her around to try to keep things 
going. If my mom is late for a bill, I worry and get afraid, 
and do not ask her for anything until it is paid.
    It is especially hard for my 2-year-old brother because he 
does not understand why Mom is always crying. He cries, too. He 
asks her not to cry.
    He wants Mom's attention. She has to go out a lot to work 
and to appointments. He has to stay with different people.
    He has no daycare or preschool because there is no money 
for that transportation and no openings near us. There are no 
services for his age except the Parent-Child Home Program that 
comes to us.
    We are in a house now, but things are not perfect. We had a 
hurricane and the roof caved in, and my ceiling is still 
hanging, and it is not fixed, and the landlady yells at my mom.
    I do not want to ever be homeless again. I think the only 
way we will never be homeless again is if my mom got a 
different job--a real job in an office or something. She works 
in a restaurant, and I hope that will happen soon.
    This year, my mom got her high school diploma and a 
driver's license and she is going to school in a few weeks to 
be a certified nurse's assistant.
    The thing that helped us go all through this is being close 
to my mom, and being close to God. Mom does good things for 
people even when we don't have enough money, and I know God 
will help us.
    I would like people to know that it is different going 
through this than just hearing about it. You never experienced 
being homeless. It is worse than hearing about it or watching a 
movie about it. You are in it. There are a lot of kids going 
through it.
    Thank you.
    [The prepared statement of Ms. Pastor can be found on page 
92 of the appendix.]
    Chairwoman Biggert. Thank you so much.
    Destiny Raynor, you are recognized for 5 minutes.

 STATEMENT OF DESTINY RAYNOR, 9TH GRADER, WINTER SPRINGS HIGH 
                    SCHOOL, SANFORD, FLORIDA

    Ms. Raynor. Hello. My name is Destiny Rayner, and I am a 
freshman at Winter Springs High School in Florida. I am here 
today with my father and my sister, Kimberly. I would also like 
to introduce you to the Metzger family--Austin, Arielle, and 
their dad. They were homeless in central Florida, too.
    My parents used to have this thrift shop and a beauty 
store. We lost our housing when the economy got really bad and 
we had to close all of our stores. Neither of my parents had a 
job, and they just kept looking for several months.
    That summer, the power and water got shut off. We didn't 
have electricity or water for 6 months. We had to eat at the 
gas station at the corner because they had a microwave.
    The toilet smelled really bad because we couldn't flush 
because the water was shut off. We had to bring buckets to a 
local church to fill with water for the toilet bowl.
    My parents didn't want to go to a shelter because the 
shelter split families up and we wanted to be together. So 
after we lost our home, we ended up moving in with my 
grandmother. This was horrible. It is a three-bedroom mobile 
home but only two rooms were usable.
    My mother, sister, and I slept in one bed. My dad slept on 
a small couch and my brother slept on a lazy boy chair. We 
stayed there for 2 to 3 weeks until we couldn't take it 
anymore. My grandmother was also dying of cancer so it was 
really hard.
    With our last bit of money, we moved into a motel. The 
school district homeless coordinator, Beth, met us after 1 week 
and started to help us.
    My parents pay the bill if my dad is able to make money at 
the day work labor place. When we don't have the money, Beth 
pays from her donations from her program. Beth is here today, 
too.
    The hardest thing about living in a motel is being on a bus 
and watching all of the other kids getting off knowing that 
they are going to their own home and I am going back to a one-
room motel. It makes me feel really upset.
    Prior to planning the trip to Washington, I only told one 
friend, Jona, about the situation. I was afraid that people 
would talk badly about the situation and we would be called 
poor and homeless.
    My teacher announced in class that we should all donate and 
help the homeless kids because they are poor. She was talking 
about me.
    I know how bad it feels. It is just that any minute, you 
can be kicked out of the motel if you do something wrong or if 
your parents don't have the money. You just can't go to your 
own room and have your own privacy.
    I was doing really well in school--As and Bs. But since 
this has happened, three of my grades dropped to Cs and Ds. I 
am now working on bringing them back up.
    Once the school program, Families in Transition, started 
helping, it made it easier and took a little weight off my 
shoulders. Now, I feel that I can focus more on my school 
rather than the home situation.
    It is still hard for me and my family. Everyone is just too 
loud in one room and my brother always gets a headache. He gets 
so much more aggravated than he used to get.
    My parents have no personal bonding time with each other 
anymore. They are always busy making sure that we are taken 
care of and they have enough money to pay for the room.
    I have seen my dad cry in the last month more than I have 
in my entire life. When I see my father cry it hurts me a lot 
because I know he is trying his best and it just still isn't 
good enough.
    It makes me feel scared that we will never get out. Last 
week, he went the whole week without getting a job and it was 
horrible.
    The Families in Transition program from the school was the 
biggest relief because they helped with so much. They helped 
set up a school bus so my parents wouldn't have to stress about 
getting us to school.
    They helped sign us up for a free breakfast and lunch 
program and sign us up for a backpack program so every 
Thursday, our backpacks are filled with food. Our food stamps 
didn't cover the whole month and we would always run out the 
last 2 weeks.
    There are some programs that provide housing help, but we 
don't qualify because my dad doesn't have a regular job and he 
doesn't make enough money. When Beth pays for the motel room, 
we are considered homeless; when my dad pays for the hotel 
room, we are not considered homeless. That doesn't make any 
sense to me. It is the same hotel room and it is hard to live 
in when you are young, no matter who pays.
    What we really need is a home of our own, and since two 
nights ago, that has now happened. Because of the ``60 
Minutes'' segment, our community came together and provided my 
family with a home.
    I now know that my family's basic needs will be met, and I 
can concentrate on what is really important--my education. My 
prayer for today is that not only has our community stepped up 
for us, but now for our government to stand up for us as well 
and help all of the other homeless children so that they, too, 
can get a home, as well.
    Thank you for the opportunity to be here today.
    [The prepared statement of Ms. Raynor can be found on page 
105 of the appendix.]
    Chairwoman Biggert. Thank you so much for your testimony.
    We have been joined by another Member from Illinois, Danny 
Davis. I ask unanimous consent that he be allowed to 
participate. Without objection, it is so ordered.
    Starnica Rodgers, you are recognized for 5 minutes.

    STATEMENT OF STARNICA RODGERS, TRUMAN COLLEGE, CHICAGO, 
                            ILLINOIS

    Ms. Rodgers. Good morning, everyone. My name is Starnica 
Rodgers. I am 18 years old, and I have lived in Chicago my 
whole life.
    Thank you for the opportunity to testify here today. It is 
a true honor.
    Currently, I am a student at Truman College. I just 
finished my first semester and received one A and two Bs. I am 
also 8 months pregnant and I am expecting my baby boy next 
month. Don't worry; I checked with my doctor and she said it is 
safe to fly.
    Right now, I am staying at a shelter for parenting teens on 
Chicago's north side. It is run by the Night Ministry.
    When I first got there, I was very nervous. I was worried 
about being in a new environment. But now, I realize that 
everyone is there for the same reason: We are all homeless and 
alone.
    Since I have been there, I have found support from other 
girls and staff. They helped me with my homework and found 
clothes for me to wear to school and they are helping me find a 
more permanent place to live.
    I have been homeless on and off for my whole life. My mom 
was a single mother with four kids and has worked minimum wage 
jobs her whole life. I remember watching my mother struggle to 
pay the rent and us having to go to a shelter when I was five. 
I want my life to be better.
    As I grew up, my mom and I started getting into a lot of 
fights. She was verbally abusive to me and sometimes physically 
abusive.
    By the time I was 16, I knew I had to leave for my own 
safety. There I was, 16 and homeless.
    I went from house to house, staying for 2 or 3 days at 
other family members' houses, not knowing where I was going to 
end up. Throughout the struggles, I was dedicated to graduating 
from high school, no matter what.
    I worked with the McKinney-Vento counselor so I could get 
free transportation to get to school. I graduated this year and 
I am very proud of that accomplishment.
    I am now in college. I am on the drama team and I was 
elected to student senate. I will graduate college no matter 
how hard the obstacles may be.
    With a college degree, I know that I will be able to get a 
good-paying job with a guaranteed salary. My dream is to be a 
social worker and help people who are going through the same 
struggles I have faced.
    Right now, I am working into a transitional program also 
run by the Night Ministry. The program receives Federal HUD 
funding, but there are not enough housing programs in Chicago 
for people like me. Before I got into the program, I had to 
call over 25 different programs but they were all full or had a 
wait list.
    I have had to struggle my whole life to find a place to 
call home, so I hope that you understand how important stable 
housing is to a young person. Without these programs, I know 
that I wouldn't be able to attend college. I would be too busy 
worrying about where I was going to stay every night.
    Thank you for listening to my story, and thank you for the 
supporting programs that are helping me. I hope that you will 
think about the 10,000 youth in Chicago who are homeless or the 
teens in your town who don't know where they are going to sleep 
tonight. Our country should give more money to programs that 
help homeless youth so we can be able to break the cycle of 
homelessness and become successful adults.
    Thank you.
    [The prepared statement of Ms. Rodgers can be found on page 
110 of the appendix.]
    Chairwoman Biggert. Thank you so much.
    And thank you all for your compelling testimony. I don't 
know, this must be your first time testifying, but I think you 
have a career. That was very, very, very good.
    We are now going to have questions from the Members of 
Congress, and we will each take 5 minutes to ask questions. And 
I will yield myself 5 minutes to start.
    Brandon, if I may call you Brandon, you said you were 
concerned about HUD's documentation requirements, and I think 
you said that in order for you to be successful in accessing 
housing services, you had to show that you would be homeless 
for a long time. Does that kind of--
    Mr. Dunlap. Sixty days, if I am not mistaken, or 14 days in 
more than one place. And that would be really inconvenient to 
put on the person I was staying with. I didn't want to overstay 
my welcome; I was already asking a huge favor, and to ask for 
documentation I think would be--I didn't want to jeopardize my 
situation.
    Chairwoman Biggert. It seems, too, that certainly you 
didn't want to be homeless for a long time, so that it defeats 
the purpose of--
    Mr. Dunlap. Yes.
    Chairwoman Biggert. --HUD helping.
    And then you also said that in school--schools that really 
recognized the homeless and provided the services.
    Mr. Dunlap. Yes.
    Chairwoman Biggert. And I think that has been mentioned a 
couple of times that--we are trying to not--and we have already 
worked with the schools and the definition there. We are really 
trying to move this into Health and Human Services and HUD to 
provide such help. Why do the schools seem to have the ability 
to help the homeless?
    Mr. Dunlap. At school, the teachers would be able to 
recognize certain patterns in students, and no representative 
from HUD knew my situation, and I wouldn't tell them if they 
asked because I didn't know this person. But at school, I am 
familiar with the teacher; if the teacher asked and showed 
genuine concern, I would share information.
    Chairwoman Biggert. Thank you.
    And then, Rumi Khan, you testified about finding Safe 
Harbor. Could you tell us a little bit more about Safe Harbor, 
how you got into that, and what it means to you?
    Mr. Khan. Me and my mom came in and asked for a place to 
stay and they gave--first we were in the emergency side for a 
little while and--
    Chairwoman Biggert. Who is they?
    Mr. Khan. Safe Harbor.
    Chairwoman Biggert. Okay.
    Mr. Khan. Safe Harbor gave us a place to stay which is on 
the emergency side, and we stayed there for a little while and 
then they got to move us up to the transitional side, and it is 
like a little apartment. And we have our own space, we have our 
own room, and it feels very safe.
    And sometimes, I don't feel homeless because I do have a 
roof over my head. And me and my mom are together in that room, 
and we have neighbors and we have friends in there.
    Chairwoman Biggert. How did you find Safe Harbor? Was it 
recommended to you by somebody?
    Mr. Khan. Yes.
    Chairwoman Biggert. That was fortunate, wasn't it?
    Mr. Khan. Yes.
    Chairwoman Biggert. Thank you.
    And, Brooklyn, you said that your mother now is going to 
school to get a diploma and a driver's license and then is 
going to be trained to be a nursing assistant. Who helped your 
mother during the hardest times and how did she figure out how 
to do that as well as take care of you?
    Ms. Pastor. I would say Ms. Benjamin helped us the most 
through everything.
    Chairwoman Biggert. What kind of help do you wish your 
mother had when you were moving between places?
    Ms. Pastor. I don't know. I just wish--because she was 
always there for everyone else, even when we didn't have it, 
and I wish that they would have done the same for her when we 
needed help, but they didn't.
    Chairwoman Biggert. Thank you.
    And then, Brittany Koon, you certainly had some bad 
experiences, and--but it seems like with--you are wearing the 
uniform, that things have really straightened out for you?
    Ms. Koon. Yes--
    Chairwoman Biggert. In your statement, you said that 
ignoring the youth has only reinforced your knowledge that your 
community abandoned you and that nobody cared about you. Do you 
still, as you have moved on, feel that way, that--
    Ms. Koon. Honestly, yes, I do.
    Chairwoman Biggert. Okay. Thank you.
    My time has expired and, Mr. Cleaver, you are recognized 
for 5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    I really have reservations about asking you a lot of 
questions, or any, for that matter. In my State of Missouri, we 
have approximately 24,000 homeless children, which means, to me 
at least, there is a certain level of invisibility, and some of 
you kind of mentioned it, and that is you try to stay under the 
radar, you don't want to be noticed.
    I am wondering, as you have struggled, have you met other 
young people who were in your same situation, and if so, how 
did--was there any attempt to measure each other's situation to 
see if there was a place or a way to get help? Did any of you 
meet others in your same situation?
    Which even promotes the whole issue that it is probably 
more severe that--this invisibility. They wouldn't want anybody 
to notice, to be accurate.
    Ms. Rodgers?
    Ms. Rodgers. Yes. I am actually in a program now where 
there are several other girls in my situation, and we all 
connected and asked, ``Okay, how did you get here and did you 
call other resources that maybe turned you down or that we can 
get in, because we all are in the same situation?'' Well, we 
are. We are either pregnant or have a child.
    So the programs that they were into we just asked, ``Okay, 
well could we get into those programs?'' and the answer was 
always no. This is probably the best way for us to go is to 
stay in this shelter.
    Mr. Cleaver. One final question: My wife and I took in a 
young man and kept him and actually sent him off to school with 
our kids--our twin boys. He was later killed in a ValuJet crash 
in the Everglades. But the one thing that we discovered was 
that he had never been to a dentist. He had never been to a 
doctor, for some obvious reasons.
    And I don't need any details, but I am wondering how much 
health care you have had--going to dentists or getting 
checkups. Anybody?
    Mr. Dunlap. As a child, I was well taken care of, but as 
the years went on, like in high school, I don't recall ever 
really going to the doctor. It is a question of how did I get 
past the physicals now, so I am just--no doctor visits, no 
dentists, nothing.
    Mr. Khan. I have, also. I go to the doctor or the dentist, 
too, all the time.
    Ms. Koon. I didn't have a lot of health care, but I had to 
go do a lot of work at the dentist in order to get into the 
Army.
    Mr. Cleaver. Thank you very much--
    I yield back the balance of my time.
    Chairwoman Biggert. Thank you.
    The gentleman from Ohio, Mr. Stivers, is recognized for 5 
minutes.
    Mr. Stivers. Thank you so much, Madam Chairwoman.
    I think many of you mentioned in your testimony--I think 
Brandon, and Brittany, and I think Destiny all talked a little 
bit about--or maybe it was Brooklyn--about grades, and how your 
housing situation really impacted your schooling and your 
ability to continue your education. Can you just help me 
understand--obviously those businesses are linked, and it then 
can change the course of your life in a negative way because 
you don't get the education you are pursuing or you don't get 
as good an education.
    Do any of you want to expound upon the--sort of the impact 
and the connection between your experience when you were 
homeless and--or having to jump between home and home, and what 
it meant to your schoolwork and your ability to ready yourself 
for your future?
    Mr. Dunlap. It was very difficult to study, given the long 
distance traveling, and maybe even traveling again after I 
traveled the initial long distance. There was no real time for 
homework. It was a lot of planning and, okay, it is late now; I 
have to go to sleep because class starts at 8:00.
    Mr. Khan. It is hard for me because I lack sleep, too, and 
when we were moving, it was very stressing and tiring, and 
staying up late was affecting my schoolwork because I couldn't 
focus in school, and my grades have gone down a little bit, but 
I am trying to go to sleep earlier and bring my grades up so I 
can get As.
    Ms. Koon. It affects you that when you are sitting in class 
you are sitting there worried about where are you going to go 
after, where are you going to eat, how are you going to get 
your homework done? Half the time, you don't have Internet 
access, or if you break a pencil, you might not have a pencil 
sharpener to complete it.
    And then, you are worried about all night, well, am I going 
to be safe? What is going to happen to me?
    Do I have the gas--for me, I was living in my car--do I 
have the gas to get back to school tomorrow? Should I sleep in 
the school parking lot and let the cops bang on my door again 
and wake me up? You are always worried about something.
    Ms. Rodgers. Yes. I can speak on that.
    In high school, it was harder than college because there 
were people I grew up with and it was hard to let them know 
that I was homeless or that I needed help. But in college, I 
got more help at the shelter that I am living in, like I got 
more help with my essays.
    In high school English, I had to do a lot of papers, and I 
didn't have a lot of the equipment that I needed to do the 
papers with. And the after-school programs that I was involved 
in didn't help me either.
    But going on into college, I got a lot more support at the 
shelter I have lived in. But when I was homeless, my grades 
were maybe Ds and Cs. I was barely passing. And in high school, 
I got As and Bs for my first semester.
    Mr. Stivers. I think many of you talked about the HUD 
requirement on documentation, and I think Chairwoman Biggert 
had asked the question before. But obviously that came up in 
multiple testimonies from you, and I think that is something we 
need to take a pretty serious look at because obviously, I 
think Brandon did a good job of explaining how it created a 
hassle on the people who were trying to help you, and a lot of 
you brought it up, and so I know that is something else we need 
to take a serious look at.
    Are there any other specific issues that you think we 
should take a serious look at? I think the chairwoman's bill 
addresses a lot of things that will help homeless youth. Does 
anybody have anything other things that--like that that this--
through the system that you experienced?
    Ms. Raynor. When you live in a motel, if you can pay for it 
at least for 14 days, you are not categorized as homeless, but 
it is still not your home. Because, as I mentioned, at any 
moment you can be kicked out for anything.
    We had a lot of help from Beth. Like, when someone else 
paid for it for you, you were homeless. If you can pay for it 
for 14 days, you are not.
    But it is the same room either way it goes. It is not your 
home. You don't have your own privacy. You are all crammed in 
one little room.
    That makes no sense because it is the same place. And I 
think that should be changed.
    Mr. Stivers. Great. Thank you.
    And I appreciate your time. It looks like my time has 
almost expired. I really appreciate you sharing your stories 
and experiences with us, and we are going to work hard to do 
the best we can to help. So thank you so much.
    And I yield back.
    Chairwoman Biggert. Thank you, Mr. Stivers.
    Ms. Waters, do you have any questions?
    Ms. Waters. Thank you very much--
    Chairwoman Biggert. You are recognized for 5 minutes.
    Ms. Waters. Yes.
    I would like to first thank all of our young panelists who 
are here today for coming to share your stories so that we can 
be better informed and know how best to use our public policy 
influence to do much better than we are doing about 
homelessness. I would like to share with you that recently I 
decided to walk through the systems in Los Angeles, and what I 
saw disturbs me greatly. I do not think the systems are working 
the way we think they are from up here.
    And for the last 3 or 4 weeks, I have been trying to get a 
family--a mother with three children--placed in transitional to 
permanent housing, and I have not been able to do it. So I have 
gone to the big agency, called the oversight agency, and I am 
confronting them on how the systems are not working. And I 
think that the members of this committee, Mrs. Biggert--under 
her leadership--we should all not just visit shelters and sit 
down and talk with people who are supposed to be implementing 
what we think is public policy; we have to walk through the 
system with people who require shelters and are--transitional 
housing or permanent housing.
    I discovered that this mother with three children was being 
asked for all kinds of documentation before she could get into 
this shelter. They wanted the birth certificates of all the 
kids, which is unreasonable, and some other documentation that 
they were asking for.
    So let me just say to you that a priority on my list of how 
I spend my time will be to try and correct some of these 
problems. Other things I discovered: In one shelter, they had 
to be in by 4:00 or they lost their bed, and this person had 
stayed out till 5:00 so I had to put them in my car and take 
them back and tell them that I wanted them to be sheltered 
despite the fact he had missed by 1 hour. And it goes on, and 
on, and on, so I know what you are going through.
    One question I may follow up on from Mr. Stivers, and that 
is, I am very concerned about while you are trying to get into 
permanent housing, your families--what is happening with your 
education and school? Because long distances--many of our 
homeless young people are long distances from the schools.
    Would it help if somehow we could put something in the 
system that would require tutoring at every shelter where there 
are children? What kind of assistance could help while your 
families are working on getting permanent housing? Do you have 
any suggestions what we could do to help with--how we could 
give support so you don't fall behind and you don't get bad 
grades simply because you can't sleep at night because you are 
in a situation where you don't feel safe, or there is noise?
    Would tutoring help, with someone on the site, or places 
where you have numbers of young people? Would it help to try 
and get some assistance from the school district to have 
teachers or a teacher on site? Would any of that help?
    Mr. Dunlap. I definitely feel tutoring would help a lot. 
And I also feel that someone trained to deal with children in 
high-stress situations would also help.
    Mr. Khan. I think transportation to school would help a lot 
because I ride my bike to school and it is very tiring, and I 
get to school very exhausted and my legs hurt.
    Ms. Waters. How many schools have you gone to, or stories 
about young people who may have gone to three, four, five 
schools in a year? Have you heard that?
    Ms. Rodgers. Yes. I actually tried to stay at the same 
school, which I shouldn't have done because I was--I missed so 
many days going from house to house. I was going from the south 
side and my school was on the west side. And I should have 
transferred schools but I knew that I wasn't going to be on the 
south side for long.
    So either way, it was hard.
    Ms. Waters. So if you had a teacher or a tutor who was in 
the area of the shelter who could keep you on track until you 
could get in a permanent place so you wouldn't lose time or 
lose grades, would that help?
    Ms. Rodgers. Yes. That would help a lot. And it would 
especially help high school students. Because I know the 
classes that are mandatory, those are the classes that I need 
help with the most. Those are the classes that the tutor can 
help me with.
    Ms. Waters. So if there was a teacher who was helping you 
and then could help you transfer your work to your permanent 
school once you got permanent placement and be like an advocate 
and a support person, that would be helpful?
    Ms. Rodgers. Yes.
    Ms. Waters. Thank you very much. I yield back.
    Chairwoman Biggert. Thank you.
    Let me just say that the first thing that we did work on in 
this whole issue was the education, and to make sure--this was 
a--it was put into No Child Left Behind and it was to makes 
sure that no homeless child was turned away from school. And we 
didn't have to have the records; you didn't have to have your 
grades and whatever, but you could be enrolled immediately in 
school where you were homeless living at the time or where you 
had been in school. And I know that it took us, then, several 
years--and this was under Mr. Miller's committee at the time, 
and--
    Ms. Waters. Would the gentlelady yield for a second?
    Chairwoman Biggert. --and just was that--go ahead--
    Ms. Waters. I just wanted to add to that, that is 
absolutely very helpful, but the real problem I am running into 
is the number of schools--
    Chairwoman Biggert. Right.
    Ms. Waters. --that the young people end up going to while 
they are homeless, and they lose credit.
    Chairwoman Biggert. And having to switch so often, and you 
are absolutely right. But we did add transportation, too. I 
think that took us a long time to get that in.
    But I think you are absolutely right that we should really 
look at maybe the tutor or the teacher actually at these 
shelters. That would be a big help. And that would go through 
the HUD. But that is something we should look at for this bill, 
so I appreciate it.
    Ms. Waters. Thank you very much.
    Chairwoman Biggert. Mr. Green, from Texas, you are 
recognized for 5 minutes.
    Mr. Green. Thank you very much, Madam Chairwoman.
    I also would like to thank the ranking member, Mr. 
Gutierrez, for his efforts in these areas, as well.
    I am very concerned about your indications that you were 
homeless but you did not want anyone to know that you were 
homeless. And I understand why. You have all spoken quite well, 
and let me compliment you. It took a lot of courage to do it as 
well as you have, and I thank you for the courage that you have 
exhibited today.
    But you all said that you didn't want people to know. Was 
there, on any of the school campuses, a counselor or someone 
who had some degree of responsibility to work with you and help 
you from the school campus? Did anyone have a counselor or 
anyone on the campus that you were able to work with?
    Mr. Dunlap. There were counselors on staff at school but I 
didn't speak to them until I had a connection from someone who 
didn't work at the school.
    Mr. Green. Until you had--did you say a connection?
    Mr. Dunlap. Yes.
    Mr. Green. Would you--
    Mr. Dunlap. Rhonda Perwin--she helped me get scholarships 
and introduced me to the Coalition for the Homeless, and from 
that point on, that is when I talked to the counselor, Mr. 
Murphy, at my high school, but he didn't help any.
    Mr. Green. Was there any outreach? Did you feel that you 
were in an environment wherein you could go to someone at the 
school and say, ``We need help. We have this situation and I 
just want to talk to someone?'' Did any of you feel that there 
was any avenue, any means available for you to do this?
    Mr. Dunlap. I personally didn't reach out because I didn't 
want any authorities going after my parents.
    Mr. Green. Yes, Ms. Raynor?
    Ms. Raynor. I didn't have on-school help, but we had a 
coordinator named Beth. She is actually here today. She is 
helping with a few hundred families, helping them with food, 
places to stay, making sure they keep up with their education.
    If it wasn't for her, I would still be staying in a motel, 
and my grades would still be horrible. At my school, we don't 
have anyone on campus, really, who helps, but there are a lot 
of kids there.
    We had a program that everyone got to come and have a free 
lunch and stuff. We had hundreds and hundreds of kids there who 
came because they were homeless, and there is nothing--there is 
no one at the school to help, but most of the kids don't want 
everyone to know. There is no point in telling people if 
nothing is going to happen.
    Mr. Green. Thank you, Ms. Raynor.
    Ms. Rodgers?
    Ms. Rodgers. Yes. I actually didn't feel comfortable 
telling everybody that I was homeless because I knew that they 
were going to look at me differently. I was afraid that it 
would get out in the whole school and that I was going to have 
to transfer because the people were looking down on me.
    But I did talk to this one lady who came up to the school 
and who got me into the McKinney-Vento program that gave me bus 
cards so I can get to school, and they noticed that I was 
homeless because of my attendance, and I was coming in late--
like, I was doing all the work and I was getting good grades 
doing the work, but my attendance was affecting my grades. So 
they actually came to me, but I didn't actually tell anyone my 
whole story.
    Mr. Green. Yes, Ms. Koon?
    Ms. Koon. It is not always that you don't want to share, 
because I am very open when it comes to sharing with people. It 
is just that society puts a label on you.
    Like, I was talking to people in my unit about--they asked 
me what I was going to D.C. for, and I let them know, and they 
laughed at me. They said, ``You can't get into the Army if you 
are that way,'' or, ``Why are you going to this expensive 
college and you are living in your car? That is not possible.'' 
People just label it based on what you are doing with what you 
have.
    Mr. Green. Mr. Khan?
    Mr. Khan. Also, I haven't gone to my friends because I am 
embarrassed and I am afraid that they are going to make fun of 
me because they have everything and I am homeless, and it is 
kind of embarrassing for me. And I don't go to the counselor at 
my school, but me and my mom went to a counselor and she was 
supposed to come to the school every other week or something, 
and she has never come, and I can't share with anybody but my 
mom.
    Mr. Green. Thank you very much.
    Madam Chairwoman, I just think I will close with this: We 
all have a duty to do all that we can, even if it is not 
enough. We have a duty to all that we can, and from my perch, I 
am convinced that we are not doing enough. There is more that 
we can do that we are not doing.
    And while we have addressed the young people who have 
spoken, I do want to thank the adults who came today who are 
with them, whether you are a mother, father, brother, 
significant other--whatever. I just want to thank you for the 
role that you are playing in helping us to give these young 
people a brighter future.
    And with this, I will yield back the balance of my time. 
Thank you.
    Chairwoman Biggert. Thank you, Mr. Green.
    And let me just say that we are very happy that you have 
told us, because--and not been afraid to come to the U.S. 
Congress, because things are going to change, and it is--we are 
working on this bill, and just giving us a lot more to put into 
it. So we really appreciate that.
    Mr. Miller, you are recognized for 5 minutes.
    Mr. George Miller of California. Thank you very much, Madam 
Chairwoman.
    Let me certainly begin by thanking you so much for coming 
and sharing your stories with us, as Members of Congress. The 
legislation that is under consideration this morning is really 
designed to address many of the things that you have mentioned, 
and some parts of the Federal law already do that, and other 
parts are inconsistent with that, and we are trying to remove 
those barriers so it would be easier for you, and your parents, 
and the counselors to access the services that you need while 
you and your family members are homeless.
    So that is our goal is to address exactly what you have 
told us in person here today. But I think it is very important 
that we hear from you.
    And I want to tell you that you just--all of you just 
exhibit a remarkable strength and maturity beyond your years, 
and I recognize that adverse situations, such as being 
homeless, can make you grow up very fast, and that is 
unfortunate. But you have obviously responded to help other 
members of your family in this same situation, and it is an 
exhibition of strength and character that sometimes we don't 
always see.
    But also, I want to just commend you for your own 
achievements in school, as difficult as it has been. There have 
been ups and downs, but you have persevered, and you should 
really feel very good about yourselves, and certainly we feel 
very good about your willingness to come here and to publicly 
demonstrate to us the need for this legislation so that it 
would be easier for you and your families and for other 
homeless children.
    On the other side of this ledger, on the education side, we 
have put many provisions into the law to try to reduce the 
barriers and the obstacles to you getting services in schools--
transportation and counselors being required. But again, when 
they go to some of the housing agencies, they find that there 
are barriers, and we are trying to reduce those. So hopefully, 
your testimony will turn out to be very valuable to us and very 
helpful to us.
    And you look back and you will remember this, when you made 
this kind of contribution on behalf of others who will be 
homeless in the future. So I hope you take that away from this 
hearing. And thank you again so very, very much.
    And obviously, our very best wishes for you and your 
families and that circumstances will change for the better for 
all you. Thank you.
    Chairwoman Biggert. The gentleman yields back.
    Mr. George Miller of California. Yes, I yield back.
    Chairwoman Biggert. The gentleman from Illinois, Mr. Davis, 
is recognized for 5 minutes.
    Mr. Davis. Thank you very much, Madam Chairwoman. And let 
me first of all thank you not only for calling this hearing, 
but certainly for giving me the opportunity to participate, 
though I am not a member of this particular committee.
    I also want to commend you. We get an opportunity to ride 
back and forth together on the airplane, and sometimes we even 
get seated in the same row. And I want to commend you for your 
passion and your sensitivity to this issue. I know of it 
firsthand because we do get a chance to talk, and I am aware of 
how high you hold this as a priority and the work that you have 
done on it over the years, so I thank you very much for that.
    I also want to commend Representative Miller for the 
leadership he has provided as chairman and now ranking member 
of the Education Committee, trying to make sure that we merge 
together the housing and social service needs with the 
educational needs of students who are homeless.
    I want to commend all of the witnesses. I have been totally 
intrigued by your testimony and I appreciate your level of 
understanding and recognition of where our country not only is, 
but where we need to go.
    Particularly do I want to welcome Brandon and Starnica, 
since both of them are from Chicago, where I come from. And I 
think the Night Ministry, which I am very familiar with, is one 
of the most innovative and creative programs I have ever heard 
about, read about, participated with, or observed what it does 
not only with homeless youth but with other homeless 
individuals, and we are fortunate that the Coalition for the 
Homeless has been one of the most effective advocacy groups for 
homeless persons in this country, at least for the last 20 
years. And so, I would commend them.
    Brandon, I didn't get a chance to hear your testimony, 
unfortunately. Are you associated with a program, or what 
program are you connected with?
    Mr. Dunlap. I am here with the Coalition for the Homeless.
    Mr. Davis. All right. So you are connected with the 
Coalition for the Homeless, and I am sure you can verify what I 
said about them, because not only do they pinpoint the need for 
services, but they are so inspirational in terms of their 
approaches to doing it.
    Starnica, where do you get your health care?
    Ms. Rodgers. Iriteen, which was connected with the Night 
Ministry. The recommended me over to Iriteen.
    Mr. Davis. Is it a clinic? Is it a--
    Ms. Rodgers. It is the clinic.
    Mr. Davis. Is it a school-based clinic?
    Ms. Rodgers. No.
    Mr. Davis. It is not a school-based clinic but is it a 
community health center clinic?
    Ms. Rodgers. It is for teens, so it is a teen clinic.
    Mr. Davis. It is a teen health clinic, which I think also 
do fantastic work. So I am just delighted that you all came to 
share with us.
    Chicago is somewhat fortunate. Truman College, which you 
attend, which is a part of the city college system, does, in 
fact, have a level of sensitivity to all kinds of students. It 
is also a college that is a united nations of students, and so 
they pay particular attention to the needs of young people, the 
needs of their students, and they are located in an area where 
I think individuals from every race, creed, nationality, 
color--everybody lives in Uptown, in the area where it is 
located, and I think that also helps.
    The Chicago Board of Education has tried--I happen to be 
very much aware of what they do because the woman who directed 
their homeless program for several years happened to have been 
my sister's classmate in college, so I became very familiar 
with them. The one question that I wanted to ask is, do any of 
you know other homeless young people who have not been able to 
connect with any program?
    Ms. Rodgers. Yes.
    Mr. Davis. So you know young people who are not connected 
to a program or a service?
    Ms. Rodgers. Yes.
    Mr. Davis. Brandon, do you know young people who--a few. A 
few.
    And that kind of projects and indicates that we not only 
need the legislation, but we also need to make sure that there 
is adequate funding for the programs that are authorized.
    So again, I thank you all for coming, for your 
participation.
    And I thank you, Madam Chairwoman, for your diligence and 
for the opportunity to be here. And I yield back.
    Chairwoman Biggert. Thank you.
    We have a second panel, but we--I have just one question, 
so if people would like the second round, if you could keep it 
to 2 minutes so that we could have the second panel.
    But I just want to come back to--Rumi, you talked about the 
fact that you and your mother were turned away from a shelter 
because you were an older boy.
    And I think, Destiny, you talked about the fact that going 
to a shelter, you were afraid that the family would be split 
up. So I wanted to come back to that.
    If you two could explain a little bit more. I know that 
this has been true, and I have heard this before, that they 
don't want to take in older boys. But what happened, and did 
this happen in other places, too?
    Mr. Khan. It has happened in--like in Safe Harbor, they 
don't accept older males or single males. I guess it is because 
they don't want to start relationships in a shelter. That is my 
best guess.
    And, yes, that has happened to me, and I am not sure why it 
has happened. So, yes, I--
    Chairwoman Biggert. That is something we will have to look 
into, then. Thank you.
    And Destiny?
    Ms. Raynor. Most of the shelters down in Florida separate 
the males and females not depending upon the age, and we all 
wanted to stay together because it would separate my younger 
brother and my dad. They would go to a separate shelter and it 
would be me, my little sister, and my mom. And we didn't want 
that to happen.
    Chairwoman Biggert. What would happen, let's say, to a 
family that has--the father and two daughters who are young?
    Ms. Raynor. They would be separated. The children would go 
to a different shelter, and I guess the leaders of the shelter 
would take care of them.
    Chairwoman Biggert. Thank you. We will look into this, too. 
Thank you.
    Mr. Cleaver, do you have anything just--okay. Thank you.
    Mr. Stivers?
    Mr. Stivers. Thank you. I will be brief.
    I just wanted to say to Brandon, and Rumi, and Brittany, 
and Brooklyn, and Starnica how proud we are of you and what a 
great job you did on your testimony today. We are proud of your 
accomplishments, your college graduation, joining the military, 
but we are also proud of your perseverance and your passion on 
this subject.
    I want to share just a really quick story so you understand 
that while homelessness affects a lot of people, it certainly 
does not have to get in your way. We have a colleague--a good 
friend of mine named Hansen Clarke, from Detroit, Michigan--who 
was homeless, and after his homelessness he went on to college, 
and then became a State representative, State senator, and now 
he is a Member of Congress.
    So I just want all of you to know that you have bright 
futures. You have a lot to offer our society. And we, as a 
society and as an institution here in Congress, need to do a 
better job of trying to help get folks the resources they need, 
and that is what I think the chairwoman's bill is about. And I 
am looking forward to supporting that and I appreciate your 
testimony today, and we are going to take it and try to address 
the situations you brought up. But I just wanted to make sure 
you know how proud of you we all are. Thank you.
    Thank you, Madam Chairwoman.
    Chairwoman Biggert. Thank you.
    Mr. Green, do you have any comments?
    Mr. Green. Just a brief comment, Madam Chairwoman. I think 
these young people have given us an opportunity today to 
understand that this is not a problem for Democrats or 
Republicans or conservatives or liberals. This is an American 
problem and it deserves an American solution.
    I look forward to working with you to reach that solution. 
Thank you, Madam Chairwoman.
    Chairwoman Biggert. Mr. Miller? Thank you.
    Mr. Davis?
    Mr. Davis. Madam Chairwoman, the only thing that I would 
say is, I remember my mother telling me when I was a young 
person that problems are like babies--the more you nurse them 
the more they grow--and that it is not always what your problem 
does to you but it is a matter of what you do with what could 
have been your problem.
    I think you all are well on the way to not having problems 
but having solutions.
    Thank you very much.
    Chairwoman Biggert. Thank you.
    And with that, we will excuse this panel, and there are 
seats available for you to listen to the other panel.
    The Chair notes that some Members may have additional 
questions for this panel which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for Members to submit written questions to these 
witnesses and to place their responses in the record.
    If we could have the second panel come up.
    I know it is going to be hard to top that panel, but thank 
you all for being here, and I will now introduce the second 
panel: Ms. Alicia Cackley, Director of Financial Markets and 
Community Investment, U.S. Government Accountability Office; 
Mr. Seth Diamond, commissioner, New York City Department of 
Homeless Services; Ms. Maria Estella Garza, homeless liaison 
for the San Antonio Independent School District; Mr. Mark 
Johnston, Deputy Assistant Secretary for Special Needs, Office 
of Community Planning and Development, U.S. Department of 
Housing and Urban Development, commonly known as HUD; Ms. 
Barbara Poppe, executive director, U.S. Interagency Council on 
Homelessness; and Dr. Grace Whitney, director of Connecticut 
Head Start State Collaboration Office, Connecticut State 
Department of Education.
    Thank you all for being here, and you will be recognized 
for 5 minutes.
    We will start with Ms. Cackley.

STATEMENT OF ALICIA PUENTE CACKLEY, DIRECTOR, FINANCIAL MARKETS 
AND COMMUNITY INVESTMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Cackley. Chairwoman Biggert and members of the 
subcommittee, good morning. I am pleased to be here to 
participate in today's hearing on homeless children and youth.
    The Census Bureau indicates that 22 percent of all children 
in the United States lived in poverty in 2010, and the 
Department of Education identified nearly 940,000 homeless 
students during the 2009-2010 school year, an 18 percent 
increase since the 2007-2008 school year. Multiple Federal 
agencies administer programs designed to address the needs of 
children and youth experiencing homelessness, but some programs 
use different definitions to determine eligibility. These 
definitions range from people living in emergency or 
transitional shelters or on the street to those living with 
others because of economic hardship or living in motels or 
campgrounds because they lack other adequate accommodations.
    My statement today is based on GAO's June 2010 report on 
differences in the Federal definitions of homelessness and 
other factors that impact the effectiveness of programs serving 
persons experiencing homelessness. In that report, we found 
that definitional differences have posed challenges to 
providing services for persons experiencing homelessness, 
including children and youth. In particular, children and youth 
living in certain precarious situations, such as doubling up 
with others or living in motels, historically were excluded 
from receiving government-funded housing services, and we 
certainly heard about that this morning.
    In our work, we also found that the data collected on the 
homeless have a number of shortcomings, and consequently do not 
fully capture the true extent and nature of homelessness. 
Further, counts of homeless children and youth vary by agency, 
partly because various Federal programs have used different 
definitions.
    Congress enacted the Homeless Emergency Assistance and 
Rapid Transition to Housing Act of 2009, the HEARTH Act, which 
broadened the general definition of homelessness and provided 
great statutory specificity concerning those who should be 
considered homeless. Last month, HUD issued a new rule on the 
definition of homelessness, adding a new category: 
unaccompanied youth and families with children and youth who 
are defined as homeless under other Federal statutes.
    The HEARTH Act and HUD's recent definitional changes may 
alleviate some challenges previously faced by children and 
youth in accessing services. In particular, some children and 
youth who previously were not considered homeless by HUD will 
now qualify as homeless. However, not enough time has passed 
for us to assess the impact of these changes, and the 
broadening of the definition does not mean that everyone who 
meets the new definition will be entitled to benefits in all 
homeless assistance programs. Constraints on resources will 
likely continue to restrict access to housing services for many 
children and youth.
    Another finding in our 2010 report was that different 
definitions of homelessness make effective collaboration across 
Federal programs more difficult. Based on our work, we 
recommended that Federal agencies develop a common vocabulary 
for homelessness.
    The agencies agreed with our recommendations and have taken 
some steps toward implementing them. For example, in January of 
this year the Interagency Council convened a meeting of experts 
to discuss the development of a common vocabulary and issued a 
report to Congress in June that summarized the feedback 
received during that meeting. The report notes that a common 
vocabulary would allow Federal agencies to better measure the 
scope and dimensions of homelessness and may ease program 
implementation and coordination.
    Recently, Interagency Council staff told us that they held 
three meetings this fall to discuss implementation of a common 
vocabulary and data standard with key Federal agencies. The 
Interagency Council also noted that individual Federal agencies 
have taken some positive steps to create this common data 
standard and improve coordination across agencies. For example, 
HHS and VA have been working with HUD to plan the potential 
transition of some of their data collection and reporting to 
HUD's Homeless Management Information System.
    To sum up, we believe that a common vocabulary and data 
standard used by all the Federal agencies that provide services 
for the homeless is an important step toward the goal of 
providing efficient and effective programs to end homelessness. 
It would allow for the collection of consistent data that 
agencies could use to better understand the nature of 
homelessness and it would allow for more effective 
communication and collaboration across Federal, State, and 
local programs that serve the homeless.
    Chairwoman Biggert, this concludes my prepared statement. I 
would be happy to respond to questions.
    [The prepared statement of Ms. Cackley can be found on page 
50 of the appendix.]
    Chairwoman Biggert. Thank you so much.
    Mr. Diamond, you are recognized for 5 minutes.

    STATEMENT OF SETH DIAMOND, COMMISSIONER, NEW YORK CITY 
                DEPARTMENT OF HOMELESS SERVICES

    Mr. Diamond. Thank you.
    Good morning, Chairwoman Biggert, and members of the 
subcommittee. I am pleased to be with you today to discuss New 
York City's ongoing efforts to prevent family homelessness and 
to work with those who are homeless to return to the community 
as quickly as possible.
    New York City's approach mirrors President Obama's Federal 
strategic plan to prevent and end homelessness. It emphasized 
preventing homelessness, increasing economic security through 
employment, improving access to mainstream programs, and 
improving the health and stability of vulnerable populations.
    As we heard so powerfully this morning, shelter can be 
particularly difficult for children, many of whom have to leave 
their school and community they know when coming into the 
shelter system. There are 16,500 children in New York City's 
shelter system, and we work closely with all our families to 
ensure we can bring as much stability as is possible into the 
lives of children living in shelter.
    The most important service we can provide for children is 
to make sure they are enrolled in school and are attending each 
day. We recognize that teachers and Education Department 
officials are critical in those efforts. We try and place 
families in shelter as close as possible to the school where 
their youngest child was enrolled, and staff from the City's 
Department of Education is located at our family intake center 
to assist families and enroll children in a new school if that 
turns out to be necessary.
    Once families are placed in shelter, education staff 
collaborates with shelter-based staff to ensure children have 
transportation to reach school. We have also begun to provide 
attendance data to shelters so they can track how children are 
attending school and work with families where attendance is an 
issue. We have also established homework rooms in shelters as a 
quiet place for students to work and receive tutoring from the 
many not-for-profit organizations that partner with us.
    It is far better for families not to be in shelter at all. 
To help those already in shelter, we have worked to increase 
our employment efforts, and this year, alone 7,500 shelter 
households have moved into jobs providing not only income, but 
greater stability.
    For those at risk of homelessness, New York City prevents 
homelessness primarily through a network of 13 prevention 
offices, called Homebase, located throughout the City. These 
offices use a range of services in their efforts to fight 
homelessness. Among the services is a close coordination with 
local schools. Homebase does regular presentations to parent 
and teacher groups and school officials so that if they become 
aware that a family is dealing with housing issues they can be 
referred for services.
    The service mix that Homebase offers is different in each 
case, but our offices are operated under two important 
principles. First, those who ask for assistance must take 
concrete and verifiable steps to improve their situation, and 
assistance is contingent on their taking those steps.
    Individuals working with a caseworker must design a plan to 
address the circumstances that put them at risk of homelessness 
and put that plan into action. The plan might include, for 
example, an aggressive job search, looking for a new apartment, 
or attending financial counseling.
    Second, as called for in the Open Door report, Homebase is 
an evidence-based effort where we continuously and rigorously 
review our work to ensure it is efficient and cost-effective. 
Especially at a time of limited resources, it is critical that 
our services be based on solid and reliable data. Homebase 
meets that test and its programs are continually evaluated to 
both ensure we are targeting those most in need of services and 
that wherever possible, we are providing the services that are 
not only beneficial to the family but will prevent those 
households from needing shelter.
    To further ensure Homebase prevention services are 
effective, we have undertaken a series of independent 
evaluations of the program. These reviews, conducted by leading 
researchers at universities across the country, as well as a 
random assignment study undertaken by Abt Associates, one of 
the Nation's leading social sciences research firms, looks at a 
series of the most critical questions involving our prevention 
efforts. The research is under way and we look forward to 
sharing the results as those findings become available.
    Prevention efforts have become a greater part of the 
national discussion of homelessness, and we are gratified that 
the new Emergency Solutions Grants (ESG) supports prevention 
work. We think this change will be critical in encouraging 
communities across the country to direct more resources towards 
prevention, and believe if those programs are established and 
operated under the high standards we have used, they can be 
effective, and believe it would be a good investment of 
taxpayer dollars to expand the ESG funding to allow additional 
prevention resources to be put in place.
    HUD resources now are primarily dedicated to shelter, 
however, should be focused on those with the greatest need. 
With financing already stretched thin, to further dilute those 
allocations would hurt the substantial efforts being made in 
New York and across the country to assist those in shelter.
    Dedicated resources are essential to provide those in 
shelter with needed housing, employment, and rehabilitative and 
case management services. While those living with others may be 
in need of services, those needs can be addressed through other 
funding streams, such as ESG. Existing allocations, such as the 
Temporary Assistance for Needy Families (TANF) program, also 
provide an opportunity to assist those at risk of homelessness.
    I thank you for the opportunity to testify and look forward 
to answering your questions.
    [The prepared statement of Mr. Diamond can be found on page 
63 of the appendix.]
    Chairwoman Biggert. Thank you.
    Ms. Garza, you are recognized for 5 minutes.

STATEMENT OF MARIA ESTELLA GARZA, HOMELESS LIAISON, SAN ANTONIO 
                  INDEPENDENT SCHOOL DISTRICT

    Ms. Garza. Thank you.
    Good morning, Representative Biggert, Representative 
Gutierrez, and members of the subcommittee. My name is Estella 
Garza, and for the past 17 years I have been the homeless 
liaison at San Antonio Independent School District in San 
Antonio, Texas.
    Last year, we enrolled 3,171 homeless students in San 
Antonio ISD. That is a 56 percent increase over the year 
before, and we are on track for another increase this year.
    About 80 percent of the homeless students we serve live in 
doubled-up situations, staying with other people because they 
have no other place to go. We can debate HUD homeless versus Ed 
homeless, but in reality, they are all the same kids. Families 
and youth can't find spaces in the shelters or the shelters 
don't have the space to serve families or unaccompanied minors, 
so they are all--what is left is just for them to be doubled 
up.
    And they bounce from one situation to another. In San 
Antonio there isn't a double-up population, a motel population, 
and a shelter population; it is all one group--a homeless 
population.
    However they are defined, they are here and they will be 
here. If they are not counted in our view of homelessness, it 
will be extremely skewed.
    And when we talk about ending homelessness in 5 or 10 
years, we must realize that we cannot do that without 
addressing the needs of our doubled-up children and youth 
because if they continue to experience the instability of 
doubling up as their norm, then they will become the chronic 
homeless adults of tomorrow.
    As we heard from our youth who testified earlier, doubled-
up children live in extremely overcrowded and stressful 
conditions that affect every aspect of their development. We 
work hard to serve our families and youth despite their 
constant mobility, but since they have no way to access stable 
housing, ultimately school districts are losing children.
    Example: I assisted a mother this October who had been 
doubled up in 5 different homes in a 2-month period. She didn't 
know where to enroll her son. That same day, he was enrolled, 
but I couldn't help to access HUD's services. She was not 
homeless, according to HUD.
    Another family who comes to mind is a mom, a veteran with a 
high school son. They were living in a motel in a terrible 
neighborhood in one room with no cooking facilities--not even a 
microwave or a refrigerator.
    I remember her son's exact words: ``This life is for the 
birds, not humans.'' Housing services? Mom paid the hotel. They 
are not homeless, according to HUD.
    I had hoped the changes to the HUD definition and the 
HEARTH Act would allow San Antonio to provide housing and 
supportive services to the children and youth I serve. However, 
after reading the regulations, and particularly the 
documentation requirements, I realized that the new definition 
would not make any difference for the vast majority of my 
families and youth.
    For example, it will be impossible for a doubled-up family 
to provide verification from the host family about how long 
they can stay, how many times they have moved, or even 
confirming they were actually staying there at all. Host 
families don't want to admit to any agency that they have two 
families in their apartment when their lease and occupancy 
indicates one family.
    I have seen families get evicted from HUD-subsidized 
housing for going over the occupancy limits by housing a 
doubled-up family, so now we have two homeless families, not 
one. So it is understandable that even a case manager calling a 
host family will be threatening and likely to result in the 
host family asking the doubled-up family to leave immediately.
    If HUD's goal is to create a high degree of anxiety and 
animosity among family members in my community, these 
documentation requirements are an excellent way of doing that. 
They will destroy families' support networks, create more 
mobility for my kids, more stress, and even greater challenges. 
It seems like HUD is trying to keep their old definition of 
homelessness and eliminate my doubled-up families and youth by 
requiring too much documentation.
    I understand HUD categorizes these families and youth as 
at-risk, but the services my families and youth need most are 
housing and supportive services, which are not available for 
at-risk families. Plus, the at-risk population, again, won't be 
counted, which again creates a false picture of homelessness in 
my community.
    H.R. 32, the Homeless Children and Youth Act, would be more 
efficient than HUD's paper chase and it would help our COC 
identify common needs and pursue common goals with one mindset. 
I am used to certifying homelessness for other Federal 
programs, such as the USDA free meals at school, HHS Head 
Start, and the College Financial Aid for Unaccompanied Homeless 
Youth. I certainly will be glad to accept the responsibility of 
certifying children and youth who are in clearly homeless 
situations under the U.S. Department of Education's definition 
so that we can serve them and prevent them from becoming 
tomorrow's homeless adults.
    Thank you so much for your time.
    [The prepared statement of Ms. Garza can be found on page 
70 of the appendix.]
    Chairwoman Biggert. Thank you.
    Mr. Johnston, you are recognized for 5 minutes.

STATEMENT OF MARK JOHNSTON, DEPUTY ASSISTANT SECRETARY, OFFICE 
    OF SPECIAL NEEDS, U.S. DEPARTMENT OF HOUSING AND URBAN 
                          DEVELOPMENT

    Mr. Johnston. Chairwoman Biggert, Ranking Member Cleaver, 
and Mr. Green, thank you for the opportunity to testify today 
on this very important issue. I want to also thank you for 
having the young, courageous witnesses on the first panel, and 
they are certainly evidence that all of us need to do more to 
help so many in this Nation who have no place to call home.
    Families with children make up too large a share of our 
homeless population, making up nearly 40 percent of all people 
living on our streets and in our shelters. Sadly, one in five 
homeless families are living in cars and other unsheltered 
places.
    This week, HUD released its national Point-In-Time count 
for homeless persons. HUD partners with communities each 
January to count the number of persons at a point in time who 
are either unsheltered--that is, living outside--or are in 
homeless shelters. These counts do not include persons who are 
at risk of having no housing, such as persons living with other 
family or friends, of which there are many, especially in these 
very difficult economic times.
    The number of persons living unsheltered or in shelters 
declined by just over 2 percent between 2010 and 2011. 
Importantly, this overall decline reflects reductions in all 
subgroups--individuals, the chronically homeless, veterans, and 
families with children. The reduction in homelessness among 
families was 2.4 percent from 2010 and 5 percent since 2007.
    While we as a Nation have a long ways to go, given high 
record poverty rates and unemployment rates, it is heartening 
that we are seeing at least some progress again in reducing 
homelessness. These reductions are a testament to both recent 
nationwide homeless prevention efforts as well as continued 
funding of proven programs authorized by this subcommittee that 
provide supportive housing to homeless families and 
individuals.
    The HEARTH Act provides communities, for the first time, a 
full range of tools to prevent and end homelessness. In 
particular, HEARTH expressly allows for HUD programs to serve 
persons who are defined as ``at risk of homelessness'' and 
expands the definition of who is considered homeless.
    HUD began to train this week, on Tuesday, on the definition 
of homelessness with our over 8,000 local grantee partners. It 
is important to note that as grantees begin to use the new, 
more expanded definition of homelessness and the definition of 
at-risk homelessness we continue to receive essential flat 
funding year after year. We are obviously in a time of great 
fiscal constraint, and it will be very challenging to serve 
more people without additional resources.
    Related to the definition, I would like to acknowledge the 
good work of GAO in assessing the need for a common vocabulary 
when it comes to the issue of homelessness. I enthusiastically 
support the finding that there should be a common vocabulary.
    The HEARTH Act was the result of many years of hard work 
from those on this committee and in the Congress in general, 
the advocacy community, homelessness service providers, and 
HUD. I was personally involved in these efforts from the 
beginning and I was very heartened to see Congress pass this 
bipartisan bill.
    In addition to broadening the definition of homelessness, 
the HEARTH Act also consolidates three HUD programs into one, 
creates the Emergency Solutions Grants program, and the Rural 
Housing Stability Program. So now, for the first time, HUD's 
homeless assistance programs will have the full range of tools 
that communities need to confront homelessness for families and 
children, from prevention for those who are at risk of losing 
their housing to emergency shelter, transitional housing, rapid 
re-housing, and permanent housing.
    To implement the HEARTH Act amendments, HUD has developed 
and is issuing six sets of regulations, the details of which 
are in my written testimony.
    Finally, we realize that solving homelessness will require 
more resources than are available through HEARTH. We are 
involved in several initiatives to help reduce and end 
homelessness for families with children and for youth that 
attempt to both bring more resources to the table and to find 
the best strategies to deal with this problem.
    In conclusion, I want to thank you for the opportunity to 
testify today, and I look forward to answering any questions 
you may have.
    [The prepared statement of Deputy Assistant Secretary 
Johnston can be found on page 79 of the appendix.]
    Chairwoman Biggert. Thank you, Mr. Johnston.
    Ms. Poppe, you are recognized for 5 minutes.

 STATEMENT OF BARBARA POPPE, EXECUTIVE DIRECTOR, UNITED STATES 
              INTERAGENCY COUNCIL ON HOMELESSNESS

    Ms. Poppe. Good morning, Chairwoman Biggert, Representative 
Green, and members of the subcommittee. Thank you for the 
opportunity to testify on the impact of homelessness on 
children and youth.
    I want to thank Chairwoman Biggert for her leadership on 
the passage of the HEARTH Act. Today, we are here to discuss 
three requirements in that Act: a change in HUD's homeless 
definition, a GAO study on Federal definitions, and the 
development of a Federal plan.
    I am pleased to report that we have made progress on all 
three. HUD's new definition reflects the agreement that was 
reached in the HEARTH Act, and we have followed up on the GAO's 
study to advance Federal work on a common vocabulary. And, as 
you know, we have the first ever Federal strategic plan to 
prevent and end homelessness.
    It is horrifying in a Nation as wealthy as ours that nearly 
1 million children and youth experience homelessness. The 
testimony we have just heard underscores this tragedy.
    As Deputy Assistant Secretary Mark Johnston has noted, the 
latest HUD data shows that nearly 240,000 family members were 
homeless on a single night in January of 2011. While the 2011 
Point-In-Time count is less than the 2010 count, other trends 
are not so positive.
    There is significant mismatch between income and housing. 
More families are experiencing foreclosure. The shrinking 
affordable housing stock, falling household incomes, and 
increased competition from higher-income renters have really 
widened the gap between the number of low-income renters and 
the number of affordable units.
    The needs of family, youth, and children vary, and often 
require not only housing and employment but also attention to 
education, health care, and other needs. These operate out at 
different silos at a local level, often managed by different 
jurisdictions. Instead of a tailored and holistic response, 
families and youth confront a highly fragmented, uncoordinated 
set of services that they are are usually left to navigate on 
their own.
    Not only is this tragic for homeless families, there is a 
growing body of evidence that repeated housing instability is 
costly to public systems. The good news is that there are 
solutions. Investing in more housing assistance now can save 
money over the long term for schools, child welfare, the health 
care system, and other public institutions.
    In June of 2010, the Obama Administration acted. For the 
first time, the Federal Government set a goal to end family, 
youth, and child homelessness by 2010. Opening Doors is based 
on a growing body of evidence that shows how targeted, 
comprehensive solutions are more cost effective than temporary 
fixes.
    Affordable housing is a cornerstone of any effort to reduce 
and ultimately end homelessness. The preservation and expansion 
of affordable housing through rehabilitation, new construction, 
and rental assistance is critical to ending family 
homelessness.
    Unfortunately, though, the trend lines for affordable 
housing are going in all the wrong directions. Too many 
Americans cannot afford a safe place to call home. Despite the 
growing need, housing assistance programs are threatened at all 
levels of government in the current budget environment.
    Next to affordable housing, prevention is also critical. 
Targeted interventions that keep families from losing a home in 
the first place spare children the trauma of homelessness, 
absences from school, or changes in schools. The key drivers 
are access to affordable housing, financial assistance, and 
support during a crisis.
    Another proven solution is rapid re-housing. Short-term 
assistance helps families quickly move out of homelessness and 
into permanent housing. HPRP made an enormous impact around the 
country and helped many communities shift to more cost-
effective programs focused on prevention and rapid re-housing.
    Housing stability, though, over the long term requires the 
right types of support provided in a highly coordinated way. 
These include good health care, education, transportation, 
child care, and a job that pays enough to meet household needs.
    Federal collaboration is moving from silos to solutions 
that connect these systems to prevent homelessness whenever 
possible, and when it does not happen, to resolve it as quickly 
as possible. That is work we are doing across Federal agencies. 
So, too, this needs to occur at State and local levels.
    What gets measured gets done, and this Administration has 
improved data collection, analysis, and reporting. Agencies 
within HHS and VA are coordinating with HUD on these efforts.
    Our Nation has faced economic uncertainties during the 
first 18 months of Opening Doors implementation, but one thing 
remains clear: Homelessness is an urgent problem. Not only is 
it devastating to families and individuals who experience it, 
but it is costly to society as a whole.
    Republicans and Democrats in Congress and across the 
country have collaborated for decades to fight homelessness. 
Family, youth, and child homelessness is an outrage that should 
know no partisan boundaries and is an area where we can make a 
real difference together.
    We need to invest in what works; we need to invest in our 
future--our children. Let us work together to ensure that by 
2020, not a single American child or youth experiences 
homelessness.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Ms. Poppe can be found on page 
94 of the appendix.]
    Chairwoman Biggert. Thank you so much.
    Dr. Whitney, you are recognized for 5 minutes.

STATEMENT OF GRACE-ANN CARUSO WHITNEY, PH.D., MPA, IMH-E (IV), 
 DIRECTOR, CONNECTICUT HEAD START STATE COLLABORATION OFFICE, 
           CONNECTICUT STATE DEPARTMENT OF EDUCATION

    Ms. Whitney. Good morning, Chairwoman Biggert, 
Representative Green, and members of the subcommittee. Thank 
you for the opportunity to provide testimony today.
    My name is Grace Whitney. For the past 15 years, I have 
served as director of the Head Start State Collaboration Office 
for the State of Connecticut. The Head Start Act requires that 
State collaboration offices be in each State to partner with 
States in specific priority areas, one of which is children 
experiencing homelessness.
    For babies, toddlers, and preschoolers, living doubled-up 
in motels and other homeless situations creates toxic stress, 
causing developmental challenges such as physical delays and 
failure to thrive, higher incidence of persistent illness, 
mental health problems such as trauma and depression, irritable 
behavior, and trouble eating and sleeping. Young children's 
neural networks, their actual genetic expressions, and the 
architecture of their young brains are being created based on 
repetition of experiences. Unhealthy conditions accumulate and 
seriously jeopardize their potential for a healthy future.
    For instance, one of our former Head Start managers 
explains that children living in motels ``live in extremely 
crowded rooms with numerous family members and often have very 
limited food preparation options.'' Often, these environments 
are full of transient adults and outdoor areas are unsafe so 
children are forced to stay inside these cramped quarters, 
certainly not ideal for young children and, of course, as you 
know, infants and toddlers who must move. Many of these 
families would be excluded using the HUD definition.
    Families living in unstable conditions, including those who 
reside in motels or doubled-up, often move repeatedly. This is 
extremely stressful for babies and young children who need 
consistency and routine for healthy development and emotional 
stability.
    Relocating often requires families to re-qualify for 
essential services, provide documentation yet again, and they 
can lose their place in line. High mobility is stressful for 
parents, too, and often leads to depression, which interferes 
with parenting, further compromising child development.
    In Connecticut, we find that even young children in HUD 
shelters often are not getting adequate services and there are 
delays in accessing services due surely to the lack of 
awareness of the needs of babies, toddlers, and preschoolers. 
Head Start focuses its services on those families most in need. 
Head Start uses the McKinney-Vento education definition of 
homelessness, which recognizes the full range of family and 
child homelessness that Head Start programs see every day.
    Head Start is a mainstream program without sufficient 
capacity to serve all eligible children. In fact, with current 
funding, Head Start nationally serves about 50 percent of 
eligible preschoolers and less than 5 percent of eligible 
infants and toddlers.
    Yet, Head Start programs are required to identify and 
prioritize doubled-up or other homeless children due to their 
dire living circumstances. Homeless families are allowed to 
enroll immediately while documentation is obtained. Head Start 
staff strive to begin services right away, to offer or obtain 
all needed services quickly, and to work in whatever ways they 
can with community partners to remove barriers.
    In serving homeless children, Head Start is a natural 
partner for HUD homeless and housing service providers. Head 
Start is a comprehensive, two-generational program that 
provides a full range of health, mental health, education, and 
social services to children and their families.
    Since roughly half of children in HUD shelters are age five 
and under, these are children who are not on the radar screen 
of the schools. Our services complement those of HUD providers 
and are a critical strategy to meet the multiple needs of 
homeless families that may otherwise go unmet.
    However, since HUD does not consider many doubled-up 
families or motel families to be homeless, this can present a 
barrier to Head Start programs who cannot then provide these 
families with the critical referrals to HUD-funded programs. 
Even those who might qualify under HUD's definition may still 
face barriers due to requirements for documentation, which can 
not only be stressful but impossible for families. Such 
requirements can create delays in achieving stability for 
babies and young children, consume precious staff time and 
resources, and create circumstances which put the needs of 
vulnerable children last, setting them further back 
developmentally.
    Most beneficial for young children are policies and 
practices that recognize and align with their unique needs and 
promote rather than hinder their health and future success.
    In closing, we all share the goal of ending family 
homelessness. However, without dedicated attention to the needs 
of young children, working together for multiple systems, we 
will fall far short of this goal.
    To break the cycle of homelessness, we must evaluate all 
homeless and housing policies, including the definitions of 
homelessness from a child development perspective, and ensure 
housing policies take into account the threat to further lives 
of these young, the very dire consequences to literally the 
well-being of our Nation, of doing anything less.
    Thank you again for the opportunity to share my experiences 
and those of the Head Start programs in the State of 
Connecticut.
    [The prepared statement of Dr. Whitney can be found on page 
112 of the appendix.]
    Chairwoman Biggert. Thank you so much.
    And now, we turn to the questions by Members, and I am glad 
to see there are a couple of us here. It really is important, 
and it is a shame that there is so much going on and that this 
happens with--when we talk about homelessness, that we keep 
pushing and pushing for this.
    And so, I will yield myself 5 minutes.
    The definition of HUD--as you know, I worked on the 
definition for Education, and I think that is when we realized 
what--the discovering of--and really getting to know the 
numbers of how many homeless children there were because of 
enrolling in schools and then being able to do that right away, 
and then finding out that HUD didn't match that.
    And really, the first generic definition of HUD was this is 
an individual who lacks a regular and adequate nighttime 
residence. And it was really addressed for what we would call 
the people who were living on the street or under the bridge, 
and it was very important that they were protected by this.
    But moving, then, towards young people, children, and 
expanding that was very slow. We had the HEARTH Act, and 
working on that, and I can remember that at that hearing--and 
there were a few people there, but it was a most important 
hearing, and one of our Members of Congress testified. It was 
the first time he had ever talked about the fact that he was 
homeless and had been abused. And I have to say, we were all in 
tears--all five of us. And it had such an impact so that we 
really worked on changing the definition there. But it wasn't 
enough.
    If you look at the HUD definition, with Title 1, obviously, 
it is the general definition. But then the things that you have 
to go through, still, that an individual or family who will 
immediately--imminently lose their housing, including the 
housing they own, rent, or live in sharing with others, rooms 
in hotels or motels not paid for by a Federal, State, or local 
government program, court order, individual or a family having 
a primary night residence that is a room in a hotel or motel 
and where they lack resources to reside there for more than 14 
days, or credible evidence that the owner will not allow the 
person to stay more than 14 days, has no subsequent resident 
identified, lacks the resources needed to obtain other 
permanent housing, unaccompanied youth and homeless families 
with children, having experienced a long-term period without 
living independently in permanent housing, having experienced 
persistent instability as measured by frequent moves, can be 
expected to continue in status for an extended period of time.
    We really just can't make these kids jump through all those 
hoops. Most of the children--homeless children--recognized by 
the Department of Education would not meet the HUD standards, 
and I think this is what has happened to some of the children 
that were here today.
    And they don't qualify. If they don't meet the requirements 
they don't qualify for the homeless housing and supportive 
services.
    We really have to make this change, and I really am happy 
to see that you are bringing this up, and talking about it, and 
doing it. But I think that we really have to have a definition 
that is the same as the other agencies, that is the same as the 
Department of Education, if we are going to get all of this 
together. And that is why we have H.R. 32, as well as doing 
some other things.
    I don't think that the kids on panel one or most of the 
homeless kids are recognized as homeless, as I said, by the 
Department of Education should be considered at-risk. These 
kids are homeless. That is their problem and their challenge. 
And so, HUD needs to recognize this fact, and I think Congress 
and every Federal agency needs to work together to help these 
homeless kids.
    And I would hope that we can work together and continue to 
do that. And as you do rulemaking, too, it is very important 
that you don't put up more and more barriers to do that.
    Ms. Garza, throughout your testimony you mentioned that you 
couldn't help certain families secure housing or assistance 
through HUD's programs, and the reasons why families, children, 
and youth can't secure is important. Can you address that 
quickly?
    Ms. Garza. As I indicated, 80 percent of our families that 
we identified are in doubled-up situations. Many of these 
families are chronically homeless. We work with these families 
on an ongoing basis, year after year after year.
    Because they are in a doubled-up situation, they really 
don't qualify for HUD services, and these families, being that 
they have been chronically homeless, there are a lot of mental 
health issues, so the supportive services are especially--would 
be very beneficial for the families that I serve.
    Chairwoman Biggert. And I think we heard today in the 
testimony that moving--and they would be doubling up with 
somebody and then they would be asked to leave. It is for 
various reasons. Sometimes because they were--people might be 
afraid that they--they have rented for one family and suddenly 
there is another family living there so they are somewhat 
illegitimate.
    But I think just the idea that they are being kicked out of 
someplace and they have nowhere to go, and this keeps 
happening, is just--
    Ms. Garza. Because they are doubled-up--going from doubled-
up to doubled-up they are--they have already exhausted a lot of 
their family connections, their family support systems. They 
have gone from family member to family member to family member 
to family member, and in every location they have overstayed 
their welcome. And so, because of that then, again, their 
limitation or their resources become very limited as to where 
they can go
    So it gets to be a really challenging situation when they 
actually just move in, because they have to be somewhere in a 
relative's house, and then have to ask them for documentation 
to support that they really are homeless for HUD. That would be 
really, really challenging.
    Chairwoman Biggert. Thank you.
    We are hearing so much about this, and having this panel 
was great. And we have a couple people here today who are 
really active in this. One is Diane Nylan, who has traveled all 
over the country visiting homeless throughout the country and 
then did a documentary that is called ``Heroes,'' and I hope 
that you have all had an opportunity to see that. And then 
Alexandra Pelosi did one called, ``The Motel Kids,'' and it was 
about the kids in Florida that was very moving.
    And, of course, ``60 Minutes'' has had a program on this 
lately, and then we have Barbara Duffield here, from the 
National Coalition on Homelessness, that has done so much. So 
we have all the tools and we have the help, we just have to get 
this done.
    And with that, I recognize the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman.
    Again, I thank the witnesses for appearing today. It has 
been said and I will say it again, it is better to build a 
strong child than to repair a broken adult. Now, for those who 
deal in the social sciences--the psychologists, psychiatrists, 
the criminologists, paleontologists--I just want you to know, I 
don't necessarily like the language of a ``broken'' adult, but 
I need to communicate, so just allow me to communicate.
    I would be interested in knowing if you have seen any 
empirical evidence on the number of people who are incarcerated 
or were incarcerated who were homeless for some period of time 
in their lives. Anyone with anything that you can point me to? 
I am sure that Google will help, but you may give me a head 
start if you have some empirical intelligence.
    Mr. Johnston. One or two observations I have is, years ago 
we did a study that looked in part at that topic and about 50 
percent of homeless adults had had some experience with the 
criminal justice system, either in prisons or in jails. I know, 
having visited Rikers Island before and seeing their homeless 
prevention program out there, there are tremendous challenges 
we have in our cities and communities everywhere with people 
coming into the jail system because they were homeless and 
often leaving the jail system because they are homeless. And 
so, prevention really is a key factor here.
    Mr. Green. Now, someone indicated that people move from one 
State to another because they find that in State A they don't 
receive the resources that they can receive in State B. To what 
extent do you find this to be the case, where we have people 
who literally will hear, ``If you go over to State A, you will 
get some help.''
    Ms. Poppe?
    Ms. Poppe. Certainly, the implementation of Federal 
programs at State and local levels varies quite widely because 
a great amount of discretion is given to locals and States as 
to how they implement the Federal programs. But the other piece 
that occurs is that the resources that States and local 
governments contribute to the solutions also vary. So some 
States contribute and support heavily in homeless programs to 
provide assistance; other States provide very little if no 
assistance at all.
    And so, the resources available to families vary greatly. I 
think you can see that most in the unsheltered numbers is the 
high rate of unsheltered children and youth that we see 
primarily in southern States and in California is reflective of 
a lack of investment by often State and local governments in 
real housing solutions to address the problem. And so, 
certainly, that variation is quite different from what services 
are available in the State of New York, say, and what would be 
available in the State of California.
    Mr. Green. Do you find that people will migrate based upon 
knowledge that they receive about these benefits from one State 
to another?
    Ms. Poppe. Most of the studies that I have seen indicate 
that people are moving for reasons of greater economic 
opportunity, so they are moving to find the jobs. And then, 
sometimes, those jobs don't pan out, and in that case, they 
experience homelessness.
    So it is not that they moved for homeless services per se. 
They moved because they were seeking a better job opportunity 
than they had in that situation. I think an exception to that 
will be domestic violence victims who often are fleeing abusive 
situations, and they do try to leave the State or other 
communities simply for safety reasons.
    Mr. Green. Thank you.
    Mr. Johnston, would you care to add something to this, 
please?
    Mr. Johnston. I remember being in St. Petersburg a few 
years ago and there was a statewide conference on homelessness 
that I was going to be speaking at the next morning, and I was 
walking around the City talking with people who were out on the 
streets at night in a park, and this one particular gentleman 
observed that he is actually from Ohio but he comes down in the 
winter time to stay in Florida. He is increasingly staying 
there time and time again.
    I was intrigued with that, and as we looked at our data 
within communities all across the country, the vast majority of 
people do tend to stay within--where their family is from, 
frankly, although there certainly are examples, as Barbara is 
mentioning, that if they need greater economic opportunity, 
they are going to be searching wherever that might be.
    And I did want to also emphasize the point: I have seen 
huge disparities on the level of assistance provided. ``60 
Minutes'' contacted us before they did the story; we provided 
them all of the data that we had and they therefore picked the 
State of Florida in large part because two-thirds of all 
homeless families live outside in Florida.
    There are very few places like that in the country, but 
every State is somewhat different. And that is certainly a huge 
concern that families with children will be living outside.
    Mr. Green. I really would like to explore this more, but my 
time is limited, so I will move onto something else.
    We have heard a good indication that one can be housed yet 
homeless--housed yet homeless--doubled-up, as you have put it, 
living with a friend. And the intelligence that you accorded us 
with reference to how this impacts the formative years of very 
young children is very, very disturbing, which gets us to this 
notion of a need for a common definition, but a common 
vocabulary. A common vocabulary could be of great benefit 
across agencies, as I am understanding your testimony today.
    I also understand, and I want you to help me with this, is 
the genuine appeal for assistance, that these definitions were 
promulgated because there was a need that they were trying to 
meet so they arrived at a definition that would work for a 
given need, which developed these silos and definitions and 
stovepipes that did not function well across lines. How do we 
deal with the different needs that have to be met with a common 
definition?
    And I am hopeful and believe that we are moving in the 
right direction. I just want to hear from the experts on the 
record as to how we get it done. So which of the experts would 
like to be first?
    Mr. Johnston?
    Mr. Johnston. About 2 years ago, HUD, the Department of 
Health and Human Services, and the Department of Education 
launched an effort and submitted a proposal to Congress to try 
a demonstration in particular for homeless families, and 
another one for currently homeless persons. And we were trying 
to link up mainstream resources that HUD has with HHS and 
Education.
    And it was interesting--this went on for about a year, in 
terms of really fine-tuning a proposal that we could use, and 
when we spoke the word ``homeless'', it certainly was used in 
different ways, from my good friend, Joe McLaughlin, from 
Education, as he would describe what homelessness meant from 
their statutory definition versus ours.
    So I think the need for a common vocabulary is incredibly 
valuable. When we interviewed with the GAO, we certainly 
supported that and look forward to that, and I know ICH has 
taken great leadership to move forward on that, because the 
challenge in this country is there are so many different 
needs--huge housing needs--that we have to be able to converse 
very well across agencies at Federal and local levels to solve 
this problem.
    Mr. Green. Mr. Diamond?
    Mr. Diamond. I would agree that there are tremendous needs, 
and I certainly think that we should do more to invest both in 
people in shelter and in people who are living in precarious 
living situations of all kinds. New York City has made a great 
effort, and the HPRP funding that we have we have really used 
in a targeted way for at-risk families, in particular.
    Our concern with broadening a definition, though, is 
diluting the resources. At a time of level or even declining 
funding, broadening the definition away from shelter 
potentially means taking resources away from the shelter system 
to use in other situations.
    There are other needs, clearly, and there are funding 
streams available. But we really need to make sure we continue 
our investment in those in shelter, because those are high-need 
families who have a variety of case management and other kinds 
of services that need to be provided if they are going to be 
able to leave the shelter system.
    Mr. Green. Mr. Poppe, would you care to respond?
    Ms. Poppe. What I wanted to add is that as we have heard 
all of the testimony this morning from the young people they, 
in fact, were all eligible for HUD programs related to 
providing mainstream housing assistance. But the reality is, 
those mainstream housing programs are oversubscribed. HUD 
programs can only meet about one-fourth of the need for those 
who are eligible.
    And so, the larger issue goes back to the need for the 
resources to meet those needs, and that is why the Interagency 
Council has worked across the definitions toward this end of 
creating a common vocabulary so that even in these places we 
can talk about the different eligibility criteria and how we 
can try to effectively use the scarce resources that are 
available to get families who are living precariously and 
doubled-up in really difficult circumstances the best access to 
affordable housing, which is what I heard each of these young 
people testify about, was what they were really looking for was 
a safe, stable home.
    We just, as a country, haven't yet made that commitment of 
the resources that the Federal, State, and the local, and the 
private sector resources to make that occur. And that is the 
work that sits before us, and that is the larger call to end 
homelessness.
    Mr. Green. Thank you very much, Mrs. Biggert. I will wait. 
If there is another round I will wait. Thank you.
    Chairwoman Biggert. Let's do another round.
    Let's go to Mr. Sherman first for 5 minutes.
    Mr. Sherman. We have a shortage of housing for the 
homeless. We have an incredible shortage of money here in the 
Federal Government. And we have an enormous surplus of boarded-
up houses, at least in some communities.
    Is there any way that we can use the housing stock that has 
already been constructed to meet these needs? And knowing that 
some of these houses that are boarded-up are 2,000 or 3,000 
square feet, is there any way that they can accommodate more 
than one homeless family?
    I will ask Mr. Johnston.
    Mr. Johnston. We do have an initiative that we have had for 
years, and it certainly is much more active during years where 
we have huge foreclosures, like in the recent past, where 
discounts can be made to allow these houses to be used for a 
variety of different reasons, including housing homeless 
persons.
    Mr. Sherman. It is one thing to find somebody who is 
homeless but somehow has the finances to make reduced mortgage 
payments. Is that the kind of program you are talking about, or 
are you talking about a program by which community 
organizations acquire use or ownership of these structures?
    Mr. Johnston. It was really the latter, in terms of 
foreclosed properties.
    Mr. Sherman. How many of these foreclosed properties have 
been turned over to those housing the homeless in the last 
year?
    Mr. Johnston. I will get that answer for you because I do 
not know.
    Mr. Sherman. Because everywhere I look in--well, not 
everywhere I look--in many places where you look around the 
country, the homes are being boarded up, they are being torn 
down. The ones that are being torn down are in bad shape when 
measured against good housing. They are palaces compared to 
sleeping in your car, and even better compared to sleeping in 
the car you don't have.
    So we are in this bizarre circumstance where we have 
boarded-up houses and people sleeping on the streets, and 
that--on another night, can you tell me what--
    Mr. Johnston. Actually, it just occurred to me, I did not 
refer to the Neighborhood Stabilization Program--multibillion 
program funded by Congress that has been tremendously helpful, 
to look at distressed areas with high foreclosure rates, to be 
able to rehabilitate and get those houses back into service. 
And it is in many, many tens of thousands--
    Mr. Sherman. That is back into service for people who are 
going to own the homes, which really get people out of 
apartments and into homes that they can--single family homes 
they can live in, which is an outstanding idea. I don't know if 
that affects the problems that we are talking about today, 
although it could be an--
    Mr. Johnston. When we did the training for and launching of 
this program, we also encouraged the use of these properties 
for nonprofit organizations to house persons with special 
needs, including homeless persons.
    Mr. Sherman. Okay. Gotcha.
    What problems are you having administering the HEARTH Act?
    Mr. Johnston. I am sorry. What problems what?
    Mr. Sherman. The HEARTH Act?
    Mr. Johnston. We are just now launching the implementation 
of the HEARTH Act amendments. The definition of homelessness, 
for instance, comes into effect on January 4th; the first 
program coming out of line is the Emergency Solutions Grants 
program, which is January 4th, as well.
    I will mention that we have identified a few technical 
challenges--technical errors that we have found in the law that 
are going to be limiting communities. For instance--and one of 
the most concerning ones to--
    Mr. Sherman. When did you discover these errors and when 
did you bring them to the attention of members of this 
committee?
    Mr. Johnston. Committee staff recently received a copy of 
them to look at; we briefed them on it.
    Mr. Sherman. When did you discover the problems?
    Mr. Johnston. We discovered the problems probably a year-
and-a-half, 2 years ago.
    Mr. Sherman. Okay.
    Mr. Johnston. And let me say, the Senate was hopeful to 
actually be enacting changes to this.
    Mr. Sherman. So you found the problems a year-and-a-half 
ago, you waited a year-and-a-half to tell the House, but 
somebody in the Senate did know about the problems and was 
trying to do something about it.
    I yield back.
    Chairwoman Biggert. So you sent it to the House of Lords, 
which takes a while to get to these things. Could we see a copy 
of it please?
    Mr. Johnston. Yes.
    Chairwoman Biggert. I have not received anything.
    Mr. Johnston. Okay.
    Chairwoman Biggert. I appreciate it. Thank you.
    Dr. Whitney, you highlight some very compelling evidence 
for many of the barriers that have prevented the children and 
youth from getting the housing assistance and services from 
HUD, and I won't read them over again, that is in your 
testimony. But I just want to say thank you for all that you 
are doing.
    And I had the opportunity years and years ago--I am a 
lawyer and I had been clerking for a judge on the U.S. Court of 
Appeals who was waiting for my job that was going to start in 
September, so I spent the summer volunteering at Head Start in 
Hull House, in Chicago, and it was the first year. It had just 
opened. And so that was--I won't tell you how long ago that 
was, but it was a long time. And it was really, I think, for 
the help--that was kind of the start of really helping 
preschool kids to be ready to go to school, and we just need 
more and more of that right now.
    And we need the kids who are homeless--I guess I am not 
asking questions, really, but I really would hope that we could 
all work together to really to solve this and really take a 
look at removing these barriers, because the more regulations 
that we get in the harder it is.
    And I know, Mr. Diamond, it seems like you don't really 
like H.R. 32.
    Mr. Diamond. I am certainly supportive of the concept of 
investing in people who are in difficult housing situations, 
and the City makes a major investment in trying to help those 
families. And we have offices throughout the City that provide 
services.
    Our concern is that shelter is a very expensive and needed 
resource. In New York City, it costs $3,000 a month to keep a 
family in shelter. And if we are going to take money away from 
the shelter system, it will have an impact on our ability to 
effectively serve those families.
    So that is our concern. Not that there isn't a need, not 
that if there were increasing resources available we wouldn't 
want to invest in everyone who has needs, but our concern is 
taking resources away from those who are in the shelter system.
    Chairwoman Biggert. That really is a different issue, but I 
know that this is something that--even when we were trying to 
do the HEARTH Act, to get that through, to try and get 
everybody on board was difficult. But I think everybody now 
realizes the importance of it.
    And I think New York is probably doing more than a lot of 
the States, really, in the programs that you have. I was 
impressed by that. But I really would like to see us all being 
on board with making sure that there aren't these barriers.
    So, Ms. Cackley, we haven't asked you any questions. Would 
you like to make another comment from--
    Ms. Cackley. I do just have one comment. I wanted to also 
make the point in talking about the benefits of a common 
vocabulary is, one of the other things that it does is it 
allows you to do a much better job of measuring homelessness, 
which then allows you to know what it is you are dealing with 
in a much more complete way. Prioritizing does have to take 
place, but you can't really even prioritize if you don't know 
the extent of the problem. So for that purpose, having a common 
vocabulary allows measurement to happen.
    Chairwoman Biggert. Thank you. And then all the measurement 
would be the same, hopefully.
    Ms. Cackley. That would be the hope.
    Chairwoman Biggert. Okay.
    With that, I yield back.
    Mr. Green, do you have something briefly?
    Mr. Green. Yes, ma'am. I will make it very brief. Thank 
you.
    I would like to, if I may, Mrs. Biggert, thank the staff. 
They just provide us an inordinate amount of intelligence, and 
it means a lot to have people to assist us to the extent that 
they do.
    Following up on what you said, Ms. Cackley, do others agree 
that a common definition would yield greater intelligence on 
the length, breadth, width, and depth of the problem? Is there 
anyone who differs?
    Mr. Johnston. I think there is a distinction between common 
vocabulary and common definition, in the sense that if we all 
understand the terms we are using, we have a common dictionary 
that we can all use, then we can understand each other, we can 
communicate, and we can implement programs.
    I, too, have a concern, as does Mr. Diamond. If you were to 
expand HUD's homeless definition, which is in the law, to, for 
instance, the Education definition, it has some big challenges 
with it.
    And what I mean by that is, we have enough funding from 
Congress for 3 years in a row to house 200,000 people in 
transitional and permanent housing. Expanding the definition 
greatly does not allow us to serve a single additional person, 
and that is sort of the concern we have about having one common 
definition when the resources that we provide are very, very 
expensive.
    Chairwoman Biggert. Would the gentleman yield?
    Mr. Green. Of course, Madam Chairwoman. Of course.
    Chairwoman Biggert. I might have said that the wrong way. 
What we are looking for is that if a child is homeless under 
the definition--Education--then they should be considered 
homeless. It doesn't really put that definition into HUD. It 
doesn't expand it to adults.
    Mr. Green. Thank you, Madam Chairwoman.
    Let me move to another area rather quickly, and this is in 
the area of veterans who are homeless, and they have children, 
too, of course. And all children are important. No child should 
be elevated to some status higher than another.
    But I am curious, do we have, Ms. Poppe, any intelligence 
on the children of veterans?
    Ms. Poppe. Thank you, Mr. Green, for that question. This is 
an area that has been a strong focus of the President and VA 
Secretary Shinseki, to focus on the needs of homeless veterans, 
and that we might one day end that by 2015.
    Just this week, we reported a 12 percent reduction in the 
percentage of veterans experiencing homelessness. There are a 
couple of new programs--or programs that have been really 
pushed out by this Administration.
    One is the HUD-VASH Program. The VASH Program provides rent 
subsidies through HUD combined with health care services and 
other supports through the VA, and that program is able to 
serve veterans' families, including the children in them. And 
so, it is a holistic response to veterans' homelessness.
    The VA has also just put together, with the support of 
Congress, the Supportive Services for Veterans Families. That 
program provides flexible assistance that, too, can serve 
families with children.
    Historically, the VA services have been limited to the 
veteran themselves, and with these two initiatives, they can 
now serve family members who are part of that. So yes, we are 
seeing veterans' families, unfortunately, experiencing 
homelessness, and yes, we are able to respond and we believe 
that these responses is what is contributing to the overall 
reduction in homelessness among veterans.
    Mr. Green. Thank you.
    Madam Chairwoman, I want to thank you again, and alert the 
witnesses that the Chair recently marked up a piece of 
legislation styled ``Homes for Heroes,'' and this piece of 
legislation would station a person in HUD whose sole 
responsibility would be to monitor homelessness among our 
veterans and there would be a report accorded Congress. So I 
want to thank you for allowing that legislation to receive a 
markup, and hopefully, it will matriculate through Congress and 
get to the President's desk.
    Thank you very much.
    Chairwoman Biggert. The gentleman is very humble. It was 
his legislation that passed.
    Just one further thing for clarification.
    Ms. Cackley, you note in your testimony that the Department 
of Education identified nearly 1 million homeless students 
during the 2009-2010 school year, and that there was an 18 
percent increase since the 2007-2008 school year. So you note 
that some evidence suggests that homelessness among children is 
increasing.
    How do you explain the discrepancy between the HUD report--
numbers that were just reported by the Administration on 
Tuesday and the Education numbers?
    Ms. Cackley. I haven't looked at them in great detail, but 
I would assume that part of the discrepancy is the definitional 
differences, still.
    Chairwoman Biggert. Okay. Thank you.
    With that, I ask unanimous consent to insert the following 
materials into the hearing record: December 7th, 2011 letter 
from Women Against Abuse; December 8th letter from National 
Center on Family Homelessness; letter from the Chicago 
Coalition for the Homeless; letter from the National Human 
Services Assembly; letter from the Social Work Association of 
America; letter from the American School Counselor Association; 
letter from First Focus Campaign for Children; letter from Hear 
Us; letter from the Homeless Prenatal Program; letter from the 
National Association of REALTORS; letter from the National 
Coalition for Homelessness; letter from the National Center for 
Housing and Child Welfare; letter from the National Network for 
Youth; letter from the Western Regional Advocacy Project; 
letter from the National Health Care for the Homeless Council; 
letter from Alliance for Excellent Education; letter from the 
National Law Center on Homelessness and Poverty; letter from 
the National Association for Education of Homeless Children and 
Youth; letter from Family Promise; letter from Family Promise 
of Midland; letter from the National Network to End Domestic 
Violence; letter from Horizons for Homeless Children; letter 
from the Interfaith Hospitality Network of Augusta; letter from 
Family Promise of Greater Helena; letter from Interfaith 
Hospitality Network of Burlington County; letter from Family 
Promise of Morris County; letter from the Interfaith 
Hospitality Network of Essex County; letter from the Family 
Promise of Forsyth County; letter from the Road Home; letter 
from the Family Promise of Albuquerque; letter from the Fort 
Bend Family Promise; letter from the Interfaith Hospitality 
Network of Northwest Philadelphia; letter from the Family 
Promise of Monmouth County; letter from the Family Promise of 
North Idaho; letter from the Family Promise of Hawaii; letter 
from the National PTA; letter from the National Association of 
Secondary School Principals; report from the National Center on 
Family Homelessness; and the June 2011 data collection summary 
report from the U.S. Department of Education.
    Without objection, it is so ordered.
    Mr. Green. Madam Chairwoman, I have a unanimous consent, as 
well, from the National Low Income Housing Coalition. I would 
like to ask--
    Chairwoman Biggert. Without objection, it is so ordered. We 
left one out?
    And thank you all. Really, thank you for being here and 
thank you for your testimony.
    The Chair notes that some Members may have additional 
questions for the panel which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for Members to submit written questions to these 
witnesses and to place their responses in the record.
    And there is one more request for unanimous consent--the 
National Association of Home Builders. Without objection, it is 
so ordered.
    With that, thank you so much. You have all been great 
witnesses, and you have been a great panel. Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:45 p.m., the hearing was adjourned.]


                            A P P E N D I X



                           December 15, 2011


[GRAPHIC] [TIFF OMITTED] T2634.001

[GRAPHIC] [TIFF OMITTED] T2634.002

[GRAPHIC] [TIFF OMITTED] T2634.003

[GRAPHIC] [TIFF OMITTED] T2634.004

[GRAPHIC] [TIFF OMITTED] T2634.005

[GRAPHIC] [TIFF OMITTED] T2634.006

[GRAPHIC] [TIFF OMITTED] T2634.007

[GRAPHIC] [TIFF OMITTED] T2634.008

[GRAPHIC] [TIFF OMITTED] T2634.009

[GRAPHIC] [TIFF OMITTED] T2634.010

[GRAPHIC] [TIFF OMITTED] T2634.011

[GRAPHIC] [TIFF OMITTED] T2634.012

[GRAPHIC] [TIFF OMITTED] T2634.013

[GRAPHIC] [TIFF OMITTED] T2634.014

[GRAPHIC] [TIFF OMITTED] T2634.015

[GRAPHIC] [TIFF OMITTED] T2634.016

[GRAPHIC] [TIFF OMITTED] T2634.017

[GRAPHIC] [TIFF OMITTED] T2634.018

[GRAPHIC] [TIFF OMITTED] T2634.019

[GRAPHIC] [TIFF OMITTED] T2634.020

[GRAPHIC] [TIFF OMITTED] T2634.021

[GRAPHIC] [TIFF OMITTED] T2634.022

[GRAPHIC] [TIFF OMITTED] T2634.023

[GRAPHIC] [TIFF OMITTED] T2634.024

[GRAPHIC] [TIFF OMITTED] T2634.025

[GRAPHIC] [TIFF OMITTED] T2634.026

[GRAPHIC] [TIFF OMITTED] T2634.027

[GRAPHIC] [TIFF OMITTED] T2634.028

[GRAPHIC] [TIFF OMITTED] T2634.029

[GRAPHIC] [TIFF OMITTED] T2634.030

[GRAPHIC] [TIFF OMITTED] T2634.031

[GRAPHIC] [TIFF OMITTED] T2634.032

[GRAPHIC] [TIFF OMITTED] T2634.033

[GRAPHIC] [TIFF OMITTED] T2634.034

[GRAPHIC] [TIFF OMITTED] T2634.035

[GRAPHIC] [TIFF OMITTED] T2634.036

[GRAPHIC] [TIFF OMITTED] T2634.037

[GRAPHIC] [TIFF OMITTED] T2634.038

[GRAPHIC] [TIFF OMITTED] T2634.039

[GRAPHIC] [TIFF OMITTED] T2634.040

[GRAPHIC] [TIFF OMITTED] T2634.041

[GRAPHIC] [TIFF OMITTED] T2634.042

[GRAPHIC] [TIFF OMITTED] T2634.043

[GRAPHIC] [TIFF OMITTED] T2634.044

[GRAPHIC] [TIFF OMITTED] T2634.045

[GRAPHIC] [TIFF OMITTED] T2634.046

[GRAPHIC] [TIFF OMITTED] T2634.047

[GRAPHIC] [TIFF OMITTED] T2634.048

[GRAPHIC] [TIFF OMITTED] T2634.049

[GRAPHIC] [TIFF OMITTED] T2634.050

[GRAPHIC] [TIFF OMITTED] T2634.051

[GRAPHIC] [TIFF OMITTED] T2634.052

[GRAPHIC] [TIFF OMITTED] T2634.053

[GRAPHIC] [TIFF OMITTED] T2634.054

[GRAPHIC] [TIFF OMITTED] T2634.055

[GRAPHIC] [TIFF OMITTED] T2634.056

[GRAPHIC] [TIFF OMITTED] T2634.057

[GRAPHIC] [TIFF OMITTED] T2634.058

[GRAPHIC] [TIFF OMITTED] T2634.059

[GRAPHIC] [TIFF OMITTED] T2634.060

[GRAPHIC] [TIFF OMITTED] T2634.061

[GRAPHIC] [TIFF OMITTED] T2634.062

[GRAPHIC] [TIFF OMITTED] T2634.063

[GRAPHIC] [TIFF OMITTED] T2634.064

[GRAPHIC] [TIFF OMITTED] T2634.065

[GRAPHIC] [TIFF OMITTED] T2634.066

[GRAPHIC] [TIFF OMITTED] T2634.067

[GRAPHIC] [TIFF OMITTED] T2634.068

[GRAPHIC] [TIFF OMITTED] T2634.072

[GRAPHIC] [TIFF OMITTED] T2634.073

[GRAPHIC] [TIFF OMITTED] T2634.074

[GRAPHIC] [TIFF OMITTED] T2634.075

[GRAPHIC] [TIFF OMITTED] T2634.076

[GRAPHIC] [TIFF OMITTED] T2634.077

[GRAPHIC] [TIFF OMITTED] T2634.078

[GRAPHIC] [TIFF OMITTED] T2634.079

[GRAPHIC] [TIFF OMITTED] T2634.080

[GRAPHIC] [TIFF OMITTED] T2634.081

[GRAPHIC] [TIFF OMITTED] T2634.082

[GRAPHIC] [TIFF OMITTED] T2634.083

[GRAPHIC] [TIFF OMITTED] T2634.084

[GRAPHIC] [TIFF OMITTED] T2634.085

[GRAPHIC] [TIFF OMITTED] T2634.086

[GRAPHIC] [TIFF OMITTED] T2634.087

[GRAPHIC] [TIFF OMITTED] T2634.088

[GRAPHIC] [TIFF OMITTED] T2634.089

[GRAPHIC] [TIFF OMITTED] T2634.090

[GRAPHIC] [TIFF OMITTED] T2634.091

[GRAPHIC] [TIFF OMITTED] T2634.092

[GRAPHIC] [TIFF OMITTED] T2634.093

[GRAPHIC] [TIFF OMITTED] T2634.094

[GRAPHIC] [TIFF OMITTED] T2634.095

[GRAPHIC] [TIFF OMITTED] T2634.096

[GRAPHIC] [TIFF OMITTED] T2634.097

[GRAPHIC] [TIFF OMITTED] T2634.098

[GRAPHIC] [TIFF OMITTED] T2634.099

[GRAPHIC] [TIFF OMITTED] T2634.100

[GRAPHIC] [TIFF OMITTED] T2634.101

[GRAPHIC] [TIFF OMITTED] T2634.102

[GRAPHIC] [TIFF OMITTED] T2634.103

[GRAPHIC] [TIFF OMITTED] T2634.104

[GRAPHIC] [TIFF OMITTED] T2634.105

[GRAPHIC] [TIFF OMITTED] T2634.106

[GRAPHIC] [TIFF OMITTED] T2634.107

[GRAPHIC] [TIFF OMITTED] T2634.108

[GRAPHIC] [TIFF OMITTED] T2634.109

[GRAPHIC] [TIFF OMITTED] T2634.110

[GRAPHIC] [TIFF OMITTED] T2634.111

[GRAPHIC] [TIFF OMITTED] T2634.112

[GRAPHIC] [TIFF OMITTED] T2634.113

[GRAPHIC] [TIFF OMITTED] T2634.114

[GRAPHIC] [TIFF OMITTED] T2634.115

[GRAPHIC] [TIFF OMITTED] T2634.116

[GRAPHIC] [TIFF OMITTED] T2634.117

[GRAPHIC] [TIFF OMITTED] T2634.118

[GRAPHIC] [TIFF OMITTED] T2634.119

[GRAPHIC] [TIFF OMITTED] T2634.120

[GRAPHIC] [TIFF OMITTED] T2634.121

[GRAPHIC] [TIFF OMITTED] T2634.122

[GRAPHIC] [TIFF OMITTED] T2634.123

[GRAPHIC] [TIFF OMITTED] T2634.124

[GRAPHIC] [TIFF OMITTED] T2634.125

[GRAPHIC] [TIFF OMITTED] T2634.126

[GRAPHIC] [TIFF OMITTED] T2634.127

[GRAPHIC] [TIFF OMITTED] T2634.128

[GRAPHIC] [TIFF OMITTED] T2634.129

[GRAPHIC] [TIFF OMITTED] T2634.130

[GRAPHIC] [TIFF OMITTED] T2634.131

[GRAPHIC] [TIFF OMITTED] T2634.132

[GRAPHIC] [TIFF OMITTED] T2634.133

[GRAPHIC] [TIFF OMITTED] T2634.134

[GRAPHIC] [TIFF OMITTED] T2634.135

[GRAPHIC] [TIFF OMITTED] T2634.136

[GRAPHIC] [TIFF OMITTED] T2634.137

[GRAPHIC] [TIFF OMITTED] T2634.138

[GRAPHIC] [TIFF OMITTED] T2634.139

[GRAPHIC] [TIFF OMITTED] T2634.140

[GRAPHIC] [TIFF OMITTED] T2634.141

[GRAPHIC] [TIFF OMITTED] T2634.142

[GRAPHIC] [TIFF OMITTED] T2634.143

[GRAPHIC] [TIFF OMITTED] T2634.144

[GRAPHIC] [TIFF OMITTED] T2634.145

[GRAPHIC] [TIFF OMITTED] T2634.146

[GRAPHIC] [TIFF OMITTED] T2634.147

[GRAPHIC] [TIFF OMITTED] T2634.148

[GRAPHIC] [TIFF OMITTED] T2634.149

[GRAPHIC] [TIFF OMITTED] T2634.150

[GRAPHIC] [TIFF OMITTED] T2634.151

[GRAPHIC] [TIFF OMITTED] T2634.152

[GRAPHIC] [TIFF OMITTED] T2634.153

[GRAPHIC] [TIFF OMITTED] T2634.154

[GRAPHIC] [TIFF OMITTED] T2634.155

[GRAPHIC] [TIFF OMITTED] T2634.156

[GRAPHIC] [TIFF OMITTED] T2634.157

[GRAPHIC] [TIFF OMITTED] T2634.158

[GRAPHIC] [TIFF OMITTED] T2634.159

[GRAPHIC] [TIFF OMITTED] T2634.160

[GRAPHIC] [TIFF OMITTED] T2634.161

[GRAPHIC] [TIFF OMITTED] T2634.162

[GRAPHIC] [TIFF OMITTED] T2634.163

[GRAPHIC] [TIFF OMITTED] T2634.164

[GRAPHIC] [TIFF OMITTED] T2634.165

[GRAPHIC] [TIFF OMITTED] T2634.166

[GRAPHIC] [TIFF OMITTED] T2634.167

[GRAPHIC] [TIFF OMITTED] T2634.168

[GRAPHIC] [TIFF OMITTED] T2634.169

[GRAPHIC] [TIFF OMITTED] T2634.170

[GRAPHIC] [TIFF OMITTED] T2634.171

[GRAPHIC] [TIFF OMITTED] T2634.172

[GRAPHIC] [TIFF OMITTED] T2634.173

[GRAPHIC] [TIFF OMITTED] T2634.174

[GRAPHIC] [TIFF OMITTED] T2634.175

[GRAPHIC] [TIFF OMITTED] T2634.176

[GRAPHIC] [TIFF OMITTED] T2634.177

[GRAPHIC] [TIFF OMITTED] T2634.178

[GRAPHIC] [TIFF OMITTED] T2634.179

[GRAPHIC] [TIFF OMITTED] T2634.180

[GRAPHIC] [TIFF OMITTED] T2634.181

[GRAPHIC] [TIFF OMITTED] T2634.182

[GRAPHIC] [TIFF OMITTED] T2634.183

[GRAPHIC] [TIFF OMITTED] T2634.184

[GRAPHIC] [TIFF OMITTED] T2634.185

[GRAPHIC] [TIFF OMITTED] T2634.186

[GRAPHIC] [TIFF OMITTED] T2634.187

[GRAPHIC] [TIFF OMITTED] T2634.188

[GRAPHIC] [TIFF OMITTED] T2634.189

[GRAPHIC] [TIFF OMITTED] T2634.190

[GRAPHIC] [TIFF OMITTED] T2634.191

[GRAPHIC] [TIFF OMITTED] T2634.192

[GRAPHIC] [TIFF OMITTED] T2634.193

[GRAPHIC] [TIFF OMITTED] T2634.194

[GRAPHIC] [TIFF OMITTED] T2634.195

[GRAPHIC] [TIFF OMITTED] T2634.196

[GRAPHIC] [TIFF OMITTED] T2634.197

[GRAPHIC] [TIFF OMITTED] T2634.198

[GRAPHIC] [TIFF OMITTED] T2634.199

[GRAPHIC] [TIFF OMITTED] T2634.200

[GRAPHIC] [TIFF OMITTED] T2634.201

[GRAPHIC] [TIFF OMITTED] T2634.202

[GRAPHIC] [TIFF OMITTED] T2634.203

[GRAPHIC] [TIFF OMITTED] T2634.204

[GRAPHIC] [TIFF OMITTED] T2634.205

[GRAPHIC] [TIFF OMITTED] T2634.206

[GRAPHIC] [TIFF OMITTED] T2634.207

[GRAPHIC] [TIFF OMITTED] T2634.208

[GRAPHIC] [TIFF OMITTED] T2634.209

[GRAPHIC] [TIFF OMITTED] T2634.210

[GRAPHIC] [TIFF OMITTED] T2634.211

[GRAPHIC] [TIFF OMITTED] T2634.212

[GRAPHIC] [TIFF OMITTED] T2634.213

[GRAPHIC] [TIFF OMITTED] T2634.214

[GRAPHIC] [TIFF OMITTED] T2634.215

[GRAPHIC] [TIFF OMITTED] T2634.216

[GRAPHIC] [TIFF OMITTED] T2634.217

[GRAPHIC] [TIFF OMITTED] T2634.218

[GRAPHIC] [TIFF OMITTED] T2634.219

[GRAPHIC] [TIFF OMITTED] T2634.220

[GRAPHIC] [TIFF OMITTED] T2634.221

[GRAPHIC] [TIFF OMITTED] T2634.222

[GRAPHIC] [TIFF OMITTED] T2634.223

[GRAPHIC] [TIFF OMITTED] T2634.224

[GRAPHIC] [TIFF OMITTED] T2634.225

[GRAPHIC] [TIFF OMITTED] T2634.226

[GRAPHIC] [TIFF OMITTED] T2634.227

[GRAPHIC] [TIFF OMITTED] T2634.228

[GRAPHIC] [TIFF OMITTED] T2634.229

[GRAPHIC] [TIFF OMITTED] T2634.230

[GRAPHIC] [TIFF OMITTED] T2634.231

[GRAPHIC] [TIFF OMITTED] T2634.232

[GRAPHIC] [TIFF OMITTED] T2634.233

[GRAPHIC] [TIFF OMITTED] T2634.234

[GRAPHIC] [TIFF OMITTED] T2634.235

[GRAPHIC] [TIFF OMITTED] T2634.236

[GRAPHIC] [TIFF OMITTED] T2634.237

[GRAPHIC] [TIFF OMITTED] T2634.238

[GRAPHIC] [TIFF OMITTED] T2634.239

[GRAPHIC] [TIFF OMITTED] T2634.240

[GRAPHIC] [TIFF OMITTED] T2634.241

[GRAPHIC] [TIFF OMITTED] T2634.242

[GRAPHIC] [TIFF OMITTED] T2634.243

[GRAPHIC] [TIFF OMITTED] T2634.244

[GRAPHIC] [TIFF OMITTED] T2634.245

[GRAPHIC] [TIFF OMITTED] T2634.246

[GRAPHIC] [TIFF OMITTED] T2634.247

[GRAPHIC] [TIFF OMITTED] T2634.248

[GRAPHIC] [TIFF OMITTED] T2634.249

[GRAPHIC] [TIFF OMITTED] T2634.250

[GRAPHIC] [TIFF OMITTED] T2634.251

[GRAPHIC] [TIFF OMITTED] T2634.252

[GRAPHIC] [TIFF OMITTED] T2634.253

[GRAPHIC] [TIFF OMITTED] T2634.254

[GRAPHIC] [TIFF OMITTED] T2634.255

[GRAPHIC] [TIFF OMITTED] T2634.256

[GRAPHIC] [TIFF OMITTED] T2634.257

[GRAPHIC] [TIFF OMITTED] T2634.258

[GRAPHIC] [TIFF OMITTED] T2634.259

[GRAPHIC] [TIFF OMITTED] T2634.260

[GRAPHIC] [TIFF OMITTED] T2634.261

[GRAPHIC] [TIFF OMITTED] T2634.262

[GRAPHIC] [TIFF OMITTED] T2634.263

[GRAPHIC] [TIFF OMITTED] T2634.264

[GRAPHIC] [TIFF OMITTED] T2634.265

[GRAPHIC] [TIFF OMITTED] T2634.266

[GRAPHIC] [TIFF OMITTED] T2634.267

[GRAPHIC] [TIFF OMITTED] T2634.268

[GRAPHIC] [TIFF OMITTED] T2634.269

[GRAPHIC] [TIFF OMITTED] T2634.270

[GRAPHIC] [TIFF OMITTED] T2634.271

[GRAPHIC] [TIFF OMITTED] T2634.272

[GRAPHIC] [TIFF OMITTED] T2634.273

[GRAPHIC] [TIFF OMITTED] T2634.274

[GRAPHIC] [TIFF OMITTED] T2634.275

[GRAPHIC] [TIFF OMITTED] T2634.276

[GRAPHIC] [TIFF OMITTED] T2634.277

[GRAPHIC] [TIFF OMITTED] T2634.278

[GRAPHIC] [TIFF OMITTED] T2634.279

[GRAPHIC] [TIFF OMITTED] T2634.280

[GRAPHIC] [TIFF OMITTED] T2634.281

[GRAPHIC] [TIFF OMITTED] T2634.282

[GRAPHIC] [TIFF OMITTED] T2634.283

[GRAPHIC] [TIFF OMITTED] T2634.284

[GRAPHIC] [TIFF OMITTED] T2634.285

[GRAPHIC] [TIFF OMITTED] T2634.286


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
